<html>
<title> - A PERSISTENT AND EVOLVING THREAT: AN EXAMINATION OF THE FINANCING OF DOMESTIC TERRORISM AND EXTREMISM</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]






 
                   A PERSISTENT AND EVOLVING THREAT:

                    AN EXAMINATION OF THE FINANCING

                  OF DOMESTIC TERRORISM AND EXTREMISM

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                     INTERNATIONAL DEVELOPMENT AND
                            MONETARY POLICY

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 15, 2020

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 116-76
                           
                           
                           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                  




                           
                            ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
42-746 PDF            WASHINGTON : 2021                           
                           

                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                 MAXINE WATERS, California, Chairwoman

CAROLYN B. MALONEY, New York         PATRICK McHENRY, North Carolina, 
NYDIA M. VELAZQUEZ, New York             Ranking Member
BRAD SHERMAN, California             ANN WAGNER, Missouri
GREGORY W. MEEKS, New York           FRANK D. LUCAS, Oklahoma
WM. LACY CLAY, Missouri              BILL POSEY, Florida
DAVID SCOTT, Georgia                 BLAINE LUETKEMEYER, Missouri
AL GREEN, Texas                      BILL HUIZENGA, Michigan
EMANUEL CLEAVER, Missouri            STEVE STIVERS, Ohio
ED PERLMUTTER, Colorado              ANDY BARR, Kentucky
JIM A. HIMES, Connecticut            SCOTT TIPTON, Colorado
BILL FOSTER, Illinois                ROGER WILLIAMS, Texas
JOYCE BEATTY, Ohio                   FRENCH HILL, Arkansas
DENNY HECK, Washington               TOM EMMER, Minnesota
JUAN VARGAS, California              LEE M. ZELDIN, New York
JOSH GOTTHEIMER, New Jersey          BARRY LOUDERMILK, Georgia
VICENTE GONZALEZ, Texas              ALEXANDER X. MOONEY, West Virginia
AL LAWSON, Florida                   WARREN DAVIDSON, Ohio
MICHAEL SAN NICOLAS, Guam            TED BUDD, North Carolina
RASHIDA TLAIB, Michigan              DAVID KUSTOFF, Tennessee
KATIE PORTER, California             TREY HOLLINGSWORTH, Indiana
CINDY AXNE, Iowa                     ANTHONY GONZALEZ, Ohio
SEAN CASTEN, Illinois                JOHN ROSE, Tennessee
AYANNA PRESSLEY, Massachusetts       BRYAN STEIL, Wisconsin
BEN McADAMS, Utah                    LANCE GOODEN, Texas
ALEXANDRIA OCASIO-CORTEZ, New York   DENVER RIGGLEMAN, Virginia
JENNIFER WEXTON, Virginia            WILLIAM TIMMONS, South Carolina
STEPHEN F. LYNCH, Massachusetts      VAN TAYLOR, Texas
TULSI GABBARD, Hawaii
ALMA ADAMS, North Carolina
MADELEINE DEAN, Pennsylvania
JESUS ``CHUY'' GARCIA, Illinois
SYLVIA GARCIA, Texas
DEAN PHILLIPS, Minnesota

                   Charla Ouertatani, Staff Director
           Subcommittee on National Security, International 
                    Development and Monetary Policy

                  EMANUEL CLEAVER, Missouri, Chairman

ED PERLMUTTER, Colorado              FRENCH HILL, Arkansas, Ranking 
JIM A. HIMES, Connecticut                Member
DENNY HECK, Washington               FRANK D. LUCAS, Oklahoma
BRAD SHERMAN, California             ROGER WILLIAMS, Texas
JUAN VARGAS, California              TOM EMMER, Minnesota
JOSH GOTTHEIMER, New Jersey          ANTHONY GONZALEZ, Ohio
MICHAEL SAN NICOLAS, Guam            JOHN ROSE, Tennessee
BEN McADAMS, Utah                    DENVER RIGGLEMAN, Virginia, Vice 
JENNIFER WEXTON, Virginia                Ranking Member
STEPHEN F. LYNCH, Massachusetts      WILLIAM TIMMONS, South Carolina
TULSI GABBARD, Hawaii
JESUS ``CHUY'' GARCIA, Illinois


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    January 15, 2020.............................................     1
Appendix:
    January 15, 2020.............................................    43

                               WITNESSES
                      Wednesday, January 15, 2020

Brooks, Lecia J., Chief Workforce Transformation Officer and 
  member of the Senior Leadership Team, Southern Poverty Law 
  Center (SPLC)..................................................     8
Maples, Hon. Jared M., Director, New Jersey Office of Homeland 
  Security and Preparedness......................................     6
McCord, Mary B., Legal Director, Institute for Constitutional 
  Advocacy and Protection, Georgetown University Law Center......    12
Miller, Rena S., Specialist in Financial Economics, Congressional 
  Research Service (CRS).........................................    11
Selim, George, Senior Vice President for National Programs, Anti-
  Defamation League (ADL)........................................     9

                                APPENDIX

Prepared statements:
    Brooks, Lecia J..............................................    44
    Maples, Hon. Jared M.........................................    55
    McCord, Mary B...............................................    62
    Miller, Rena S...............................................    73
    Selim, George................................................    80


                   A PERSISTENT AND EVOLVING THREAT:

                    AN EXAMINATION OF THE FINANCING

                  OF DOMESTIC TERRORISM AND EXTREMISM
                              ----------                              


                      Wednesday, January 15, 2020

             U.S. House of Representatives,
                 Subcommittee on National Security,
                          International Development
                               and Monetary Policy,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:03 a.m., in 
room 2128, Rayburn House Office Building, Hon. Emanuel Cleaver 
[chairman of the subcommittee] presiding.
    Members present: Representatives Cleaver, Perlmutter, 
Himes, Sherman, Vargas, Gottheimer, Wexton, Lynch; Hill, Lucas, 
Williams, Gonzalez of Ohio, Rose, Riggleman, and Timmons.
    Ex officio present: Representatives Waters and McHenry.
    Also present: Representative Barr.
    Chairman Cleaver. The Subcommittee on National Security, 
International Development and Monetary Policy will come to 
order.
    Without objection, the Chair is authorized to declare a 
recess of the subcommittee at any time.
    Also, without objection, members of the full Financial 
Services Committee who are not members of this subcommittee are 
authorized to participate in today's hearing.
    Today's hearing is entitled, ``A Persistent and Evolving 
Threat: An Examination of the Financing of Domestic Terrorism 
and Extremism.''
    I now recognize myself for 3 minutes to give an opening 
statement.
    Domestic terror poses a persistent and evolving threat of 
violence and economic harm to the United States. These are not 
my own words. That was said by senior leaders within the FBI on 
the state of our country when appearing before Congress in 
June. The rate, pace, and lethality of domestic terrorist 
attacks have only grown more devastating since this testimony 
was delivered.
    In July, at California's Gilroy Garlic Festival, 4 people 
were killed and 17 were injured. In August, in El Paso, Texas, 
22 people were killed and 24 were injured. In December, in 
Jersey City, New Jersey, as one of our witnesses is most 
painfully aware, six people were killed, including one police 
officer.
    2019 saw the highest number of mass killings recorded to 
date: 211 killed in 41 incidents, according to data compiled by 
the Associated Press, USA Today, and Northeastern University. 
Acts of domestic terror were the driving force behind these 
numbers.
    This hearing presents us the unique opportunity to look 
past the politics that surround this issue to explore how we 
can confront and overcome this crisis. How may we most 
effectively follow the money to disrupt the financing of these 
crimes? How can we enable law enforcement and the financial 
services institutions to counter domestic terror financing?
    Congresswoman Wexton has a bill before us today, H.R. 5132, 
the Gun Violence Prevention Through Financial Intelligence Act, 
which requires the Financial Crimes Enforcement Network 
(FinCEN) to issue an advisory to financial institutions about 
how lone actors and other domestic terrorists procure firearms.
    Congressman Gottheimer has a bill that would freeze the 
assets of suspected terrorists and those who show support for 
terrorism. The bill would also create a clearinghouse for 
incidents of terrorism to be used to assist law enforcement as 
they try to follow the money.
    There is also a bill calling for the U.S. Government 
Accountability Office (GAO) to study funding of domestic 
terrorism.
    The Wall Street Journal reported in 2018 that banks and 
credit card companies were discussing ways to identify 
purchases of guns in their payment systems as a means of 
directly confronting the issue of mass killings. We must have a 
robust conversation on all of the contours of this issue, 
including guns.
    I would remind everyone of the sensitivity surrounding this 
issue. There is a man today serving a 10-year sentence in 
Leavenworth Federal Prison for having tried to firebomb my 
district office in Kansas City. Our Chair had two bombs mailed 
to her. Our House Minority Whip was shot and carries the wounds 
of that violence with him today. With these incidents in mind, 
I implore witnesses and members to participate thoughtfully as 
we explore this issue.
    The Chair now recognizes the ranking member of the 
subcommittee, Mr. Hill, for 5 minutes.
    Mr. Hill. I thank the Chair. Thank you for convening this 
hearing.
    And I thank our witnesses for taking time today to be with 
us and present your views.
    This is a topic that members of the committee care deeply 
about. Over the past 5 years that I have served in Congress, I 
have served on the Illicit Finance Subcommittee during that 
entire period. I know we have had many hearings about terror 
financing and related topics, but I don't remember us focusing 
on and analyzing the issue from a domestic perspective. I look 
forward to a constructive dialogue about this pending threat.
    Violent extremism is considered a growing problem in this 
country. FBI Director Chris Wray testified before the Senate 
last year, stating that, ``homegrown violent extremists are the 
greatest, most immediate terrorism threat to the homeland.'' 
That is a big statement.
    Furthermore, a report released by the Department of 
Homeland Security in September 2019 outlines, ``Domestic 
terrorism and mass attacks are as great a threat to the United 
States as foreign terrorism.''
    Since 9/11, there have been 85 incidents of violent 
extremism committed, according to the GAO.
    This extremism has been impacting constituents in Arkansas 
all the way back to the 1980s. In 1985, current Arkansas 
Governor Asa Hutchinson, who was then a U.S. Attorney, helped 
dismantle the operations of The Covenant, the Sword, and the 
Arm of the Lord, a militia-style white supremacy group 
operating in north Arkansas.
    More recently, in 2009, a domestic radicalized Islamic 
extremist opened fire at the military recruiting station in my 
district, in Little Rock, Arkansas, killing Private William 
Long of Conway, Arkansas, and wounding my friend, Private 
Quinton Ezeagwula from Jacksonville.
    These attacks are not isolated incidents, and we need to 
ensure, as policymakers, where we can better assist law 
enforcement efforts to track their funding and monitor their 
internet usage to inhibit the growth.
    Recent anti-Semitic attacks in the New York area are deeply 
concerning. The continued demonization of Israel through 
initiatives like the Boycott, Divestment, and Sanctions (BDS) 
movement in this country are contributing to that anti-Semitic 
sentiment across our nation. I am disappointed to report that 
last May, in my home State, protesters interrupted a Holocaust 
Remembrance Day in Russellville, Arkansas, bearing signs with 
anti-Semitic language.
    I have long opposed the BDS movement, and I have 
cosponsored several bills to that effect, including our ranking 
member, Mr. McHenry's, legislation in the 115th Congress. While 
I applaud the House for passing H. Res. 246 last July, which 
opposes efforts to delegitimize Israel, personally, I don't 
think it went far enough. A watered-down, nonbinding resolution 
isn't sufficient.
    I believe we should pass H.R. 336, the Strengthening 
America's Security in the Middle East Act, being led by my 
colleague, Mike McCaul of Texas. Title 4 of this legislation 
includes the Combating BDS Act, which would allow a State or 
local government to adopt measures to divest assets from 
entities using boycotts, divestments, or sanctions to influence 
Israel's policies.
    We need to create bipartisan solutions to ensure that 
violence and hatred does not continue to grow. I applaud the 
joint efforts of the Department of Homeland Security, the 
Department of Justice, the FBI, and the National 
Counterterrorism Center and what they have done to implement 
efforts to counter this violent domestic extremism. I encourage 
my colleagues today to think about ways the House Financial 
Services Committee can help underscore and contribute to the 
great work being done.
    Thank you, Mr. Chairman, and I yield back the balance of my 
time.
    Chairman Cleaver. Thank you.
    The Chair now recognizes the Chair of the full Financial 
Services Committee, Chairwoman Maxine Waters, for such time as 
she may consume.
    Chairwoman Waters. Thank you very much, Mr. Chairman. I 
thank you for convening this hearing on combating the financing 
of domestic terrorists like the white supremacy and sovereign 
citizen groups.
    While the U.S. has long focused on international terrorism, 
the FBI and DHS have confirmed that domestic extremists are now 
as big a threat here at home. We easily recognize their stain 
on cities across the U.S., in Charlottesville, Boston, Gilroy, 
Pittsburgh, El Paso, Portland, and on and on and on.
    Barely a day goes by before we hear of another violent 
attack on African Americans, Jews, Muslims, Latinos, LGBTQ 
persons, immigrants, women, and others targeted by, most 
frequently, far-right hate groups. My staff and I were the 
targets of a recent domestic terror attack, receiving two pipe 
bombs from a right-wing Trump fanatic, who also sent more than 
a dozen of these weapons to Democratic Party figures.
    President Trump's language that there are, ``fine people on 
both sides,'' and his willfully blind statements asserting that 
there is no global rise in white nationalism should concern all 
of us. Trump has not only failed to forcefully condemn the 
extremists, but he often encourages their abhorrent behavior.
    America cannot tackle the threat if we refuse to recognize 
it, and I am eager to hear from the panel about what Congress 
should do to act forcefully where Trump has refused to do so. 
Our panel of experts today will help us to identify the bad 
actors and cut off funding for their radicalization and bad 
acts.
    And let me just say, Mr. Chairman, that fresh on our minds 
is the march that took place in Charlottesville, where we had 
white supremacists who were marching and chanting, ``You will 
not replace us. Jews will not replace us.'' And in light of all 
that, the President of the United States thought there were 
good people on both sides.
    This is a serious hearing, and I am very pleased that you 
are spending time to identify what is going on right here in 
our own country. And I look forward to working with everyone to 
ensure that we cut off all funding--not cut off funding, but 
deny funding, find funding, identify where the money is coming 
from, and do everything that we can to stop it.
    I yield back the balance of my time.
    Chairman Cleaver. Thank you, Madam Chairwoman.
    Our first witness will be introduced by Congressman 
Gottheimer.
    Mr. Gottheimer. Thank you, Chairman Cleaver, for affording 
me the opportunity to introduce our first witness, Jared 
Maples, the director of the New Jersey Office of Homeland 
Security and Preparedness.
    And thank you, Chairwoman Waters, for your leadership to 
help combat domestic terror.
    Prior to joining Homeland Security, Director Maples spent 
more than a decade at the Central Intelligence Agency in 
several leadership roles, and previously worked at the Pentagon 
in the Office of the Secretary of Defense. He leads an office 
on the front lines of the effort to protect New Jersey 
residents from a range of threats and especially threats 
against our State's diverse religious communities.
    According to the New Jersey Office of Homeland Security 
annual reporting, homegrown violent extremists inspired by ISIS 
and al-Qaida and other terrorists remain the number-one threat 
to New Jersey. And in recent years, his office has ranked white 
supremacists as one of the highest threats as well.
    In recognition of his extraordinary leadership against 
domestic terrorists, white supremacists, anti-Semites, and 
other homegrown terrorists, the Anti-Defamation League of New 
York and New Jersey awarded Director Maples with its 2018 ADL 
Making a Difference Award, noting that, ``Director Maples has 
made great strides in connecting communities of faith with each 
other and with law enforcement, bridging gaps in communication 
before emergency situations happen so that the New Jersey 
community can work together instead of individually before 
calamity strikes.''
    On many occasions, unfortunately far too many, including 
just after the attack in Jersey City, and in all of the 
counties that I represent in my district, we have stood 
together and worked closely together to make sure that our 
first responders and our religious institutions--our 
synagogues, our churches, our mosques--and all of our 
communities have what they need to protect the State and all of 
our residents against the next terrorist attack.
    We are very, very lucky to benefit from his expertise and 
leadership, and I look forward to hearing from him today on 
this issue that affects all Americans, Democrats and 
Republicans.
    And I am very, very grateful that you are here today.
    Thank you.
    Chairman Cleaver. Thank you, Mr. Gottheimer.
    Our second witness is Lecia Brooks, who works in senior 
leadership as the chief workplace transformation officer at the 
Southern Poverty Law Center. Ms. Brooks previously served as 
the Center's outreach director, traveling around the U.S. and 
abroad to counter hate and extremism and to promote the 
celebration of differences.
    Our third witness is Rena Miller. Ms. Miller is a 
specialist in financial economics at the Congressional Research 
Service, focusing on anti-money-laundering and countering 
terrorism financing. Previously, Ms. Miller has worked as a 
financial services attorney and at the Department of the 
Treasury.
    Our fourth witness is George Selim, who is currently the 
senior vice president for programs at the Anti-Defamation 
League. He has previously served in both the Bush and Obama 
Administrations, as the inaugural Director of the Department of 
Homeland Security's Office for Community Partnerships, as well 
as in various other leadership positions.
    And our final witness is Mary McCord. Ms. McCord serves as 
legal director at the Institute for Constitutional Advocacy and 
Protection, and as a visiting professor of law at Georgetown 
University Law Center. She has previously served as Assistant 
Attorney General for National Security at the DOJ, and as an 
assistant U.S. Attorney in the D.C. appellate and criminal 
court.
    I want to thank you all for being here today. Witnesses are 
reminded that your oral testimony will be limited to 5 minutes. 
And without objection, your written statements will be made a 
part of the record.
    Mr. Maples, you are recognized for 5 minutes to give an 
oral presentation of your testimony.

   STATEMENT OF THE HONORABLE JARED M. MAPLES, DIRECTOR, NEW 
      JERSEY OFFICE OF HOMELAND SECURITY AND PREPAREDNESS

    Mr. Maples. Chairman Cleaver and Ranking Member Hill, thank 
you for the opportunity to testify before you today. It is an 
honor to speak with you and to share information gathered by my 
office regarding sources of domestic terrorism funding as it 
impacts New Jersey and the country as a whole.
    The New Jersey Office of Homeland Security and Preparedness 
(NJOHSP) is tasked with coordinating counterterrorism, 
resiliency, and cybersecurity efforts across all levels of 
government, law enforcement, nonprofit organizations, and the 
private sector. Furthermore, we are charged with bolstering New 
Jersey's resources for critical infrastructure protection, 
preparedness, training, and Federal grants management.
    Many domestic extremist attacks are committed by 
individuals unaffiliated or unassociated with a larger group or 
network. Most of the cases I will discuss today highlight lone 
offenders who do not need large amounts of funding to conduct 
their operations, making it difficult to detect and prevent 
attacks. Common tactics in domestic extremist attacks include 
easily obtainable weapons such as knives, small arms, and 
vehicles.
    The cases I will mention have a direct nexus to New Jersey 
but serve as examples of the kind of activity prevalent 
throughout the United States.
    My office assessed that many of these organized domestic 
extremist activities are funded through criminal enterprises, 
such as the illicit sale of counterfeit goods, drug and weapon 
trafficking, cigarette smuggling, and various fundraising 
methods.
    Lone-wolf offenders will likely be self-funded in order to 
carry out their goals. Additionally, we cannot discount the 
future role of cryptocurrencies in funding acts of domestic 
extremism, both within New Jersey and across the United States.
    NJOHSP has worked with many Federal, State, and local 
government agencies during the course of investigations. While 
we provide details on our ongoing efforts, be mindful that we 
always seek to improve our approach towards preventing these 
incidents from occurring in the first place.
    The New Jersey Suspicious Activity Reporting System 
(NJSARS) is part of an ongoing effort in New Jersey to increase 
our threat reporting, which is directly linked to the FBI's 
national SARs system, known as eGuardian.
    Today, I will only highlight a few relevant case examples, 
starting with a recent tragedy.
    On December 10, 2019, two perpetrators killed three people 
and injured three others when they targeted a kosher grocery 
store in Jersey City shortly after killing Jersey City police 
detective Joseph Seals at a nearby cemetery. The shooters 
espoused anti-Semitic and anti-law-enforcement views prior to 
the attack. This is an ongoing investigation, and we expect to 
learn more about possible funding sources once it has 
concluded.
    We do know that at least two Black separatist extremist 
groups are active in New Jersey: the New Black Panther Party 
(NBPP), and the Israelite Church of God in Jesus Christ 
(ICGJC). Both groups promote violence and hate-based rhetoric 
against law enforcement, government officials, the Jewish 
community, and other ethnicities.
    In November 2016, the FBI served a search warrant related 
to financial irregularities at the ICGJC's organization 
headquarters in New York. The leader is a New Jersey resident 
who oversees churches in at least 10 States. The group is 
financially sustained through donations from members, and there 
have been allegations that the members are involved in 
financial scams that prey upon other members and sects.
    On April 13, 2018, the leader of Aryan Strike Force, Joshua 
Steever, in Phillipsburg in Warren County, was arrested along 
with five other members of the group for conspiring to sell 
methamphetamine, firearms, and machine gun parts to fund the 
organization's activities. They stored firearms and ammunition 
at locations in New Jersey and Pennsylvania and transported 
methamphetamine across State lines. They laundered the illicit 
proceeds from the drug sales by purchasing Target gift cards, 
which they traded for illegal weapons.
    Sovereign citizens continue to engage in harassing tactics, 
such as bogus liens and a variety of scams and fraud. Threats 
and ultimatums, attempted citizens arrests, takeovers of 
government or other buildings, and acts of violence, especially 
during traffic stops and resident visits, are common among the 
sovereign citizen movement.
    In May 2017, detectives from my office arrested a professed 
sovereign citizen for filing fraudulent liens, a first in New 
Jersey. Several of the largest scams involving sovereign 
citizens have brought in more than $100 million. Among the most 
common types of scams used are pyramid and other investment 
schemes, trust scams, real estate fraud, and various types of 
tax fraud, amongst immigration fraud and malpractice insurance 
fraud, as they get more creative.
    In conclusion, we assess that organized domestic extremists 
will continue to fund activities through criminal enterprises, 
and lone offenders will likely be self-directed and self-funded 
in order to carry out their goals.
    Additionally, we cannot discount the future use of 
cryptocurrencies as a means to fund acts of domestic extremism 
within New Jersey and across the United States. Foreign 
terrorist organizations have used such platforms as Facebook 
and Telegram to solicit funding through Bitcoin. In 2017, 
Andrew Anglin, publisher of neo-Nazi blog The Daily Stormer, 
received a donation after the Charlottesville attack in the 
amount of 14.88 Bitcoins, or approximately $60,000.
    We remain dedicated to continuing efforts to combat 
domestic terrorism and its sources of funding, to further 
collaborating with our law enforcement and private-sector 
partners, and to working toward addressing threats with a focus 
on prevention.
    Chairman Cleaver, Ranking Member Hill, and distinguished 
members of the subcommittee, I thank you again for the 
opportunity to testify today. I look forward to your questions 
and I yield back to the chairman.
    [The prepared statement of Mr. Maples can be found on page 
55 of the appendix.]
    Chairman Cleaver. Thank you very much.
    Ms. Brooks, you are now recognized for 5 minutes to give an 
oral presentation of your testimony.

 STATEMENT OF LECIA J. BROOKS, CHIEF WORKFORCE TRANSFORMATION 
  OFFICER AND MEMBER OF THE SENIOR LEADERSHIP TEAM, SOUTHERN 
                   POVERTY LAW CENTER (SPLC)

    Ms. Brooks. Thank you, Chairman Cleaver, Ranking Member 
Hill, and Chairwoman Maxine Waters.
    For more than 3 decades, the Southern Poverty Law Center 
has been monitoring, issuing reports about, and training law 
enforcement officials on far-right extremist activity in the 
United States. Each year since 1990, we have conducted a census 
of hate groups operating across the United States.
    I would like to make three main points today.
    First, we are witnessing a surging white nationalist 
movement in the United States that is part of a larger global 
movement linked by the idea that white people are being 
displaced in part by migrants in countries they believe should 
belong to them.
    Second, this movement is rooted in a toxic, antidemocratic, 
white supremacist ideology that is metastasizing on social 
media networks and other websites that traffic in hate. These 
networks are not only radicalizing people but are, in effect, 
incubating new terrorists.
    Third, we would like to recommend ways in which technology 
companies, including social media sites and online pay portals, 
can disrupt the funding, organizing, and recruiting efforts of 
hate groups and bad actors who seek to normalize hate.
    On August 3, 2019, the United States witnessed yet another 
mass shooting, this time in El Paso, Texas, where 22 people 
were killed and more than 20 were injured. Shortly before the 
shooting took place, a four-page manifesto appeared online, 
reportedly written by the shooter. The manifesto contained 
white nationalist talking points on demographic displacement, 
white genocide, and illegal immigration.
    Technology companies, especially social media platforms, 
play an enormous role in the spread of hateful rhetoric and 
ideas, which can lead to the radicalization of people online.
    Though the United States has since 9/11 devoted enormous 
resources to fighting international terrorism spawned by 
radical forms of Islam, it has done relatively little to combat 
another increasingly virulent source of terror, one that has 
claimed more lives in recent years: the white nationalist 
movement.
    According to SPLC's analysis, more than 100 people in the 
United States and Canada have been killed in attacks committed 
by extremists linked to the white supremacist movement since 
2014. All of the perpetrators interacted with extremist content 
online.
    Nothing has helped facilitate the process of far-right 
radicalization like the internet. The online radicalization 
narrative is now a terrifyingly common one. Before the days of 
the internet, far-right extremists typically had to publish and 
disseminate propaganda in printed form. Most Americans were 
simply never exposed to this material. Now, white nationalists 
commonly develop their views by coming into contact with 
extremist content online.
    Most people who associate with the white nationalist 
movement do not belong to a formal hate group but act as a part 
of a loosely organized community of extremists who congregate 
around online propaganda hubs. There are entire online spaces, 
including the forum Fascist Forge, threads on the social media 
sites the Gab and Telegram, and many others, that exist solely 
to provide training and advice on how to carry out acts of 
violence, to disseminate texts that promote racial terrorism, 
and to encourage followers to commit their own violent attacks. 
These online spaces are incubating future terrorists.
    For decades, the SPLC has been fighting hate and exposing 
how hate groups use the internet. We have lobbied internet 
companies one by one to comply with their own rules to prohibit 
services from being used to foster hate or discrimination. A 
key part of this strategy has been to target these 
organizations' funding.
    Hate group sites are primarily funded by peer-to-peer 
interactions, not by large donors. Even a small amount of money 
can go a long way in spreading hate online. These groups and 
individuals are able to spread their toxic ideologies far and 
wide through ads and events that cost relatively little. Public 
exposure is half the battle. Our campaign must continue in 
earnest.
    In October of 2018, the Change the Terms coalition set 
recommended policies for technology companies that would take 
away the online microphone that hate groups use to recruit 
members, to raise funds, and to organize violence. We encourage 
this committee to do further research and encourage online 
platforms to remove their funding sources and prevent these 
ideas from reaching a wider audience, and disrupting their 
networks.
    Thank you.
    [The prepared statement of Ms. Brooks can be found on page 
44 of the appendix.]
    Chairman Cleaver. Thank you very much.
    Mr. Selim, you are now recognized for 5 minutes to give an 
oral presentation of your testimony.

 STATEMENT OF GEORGE SELIM, SENIOR VICE PRESIDENT FOR NATIONAL 
             PROGRAMS, ANTI-DEFAMATION LEAGUE (ADL)

    Mr. Selim. Chairman Cleaver, Ranking Member Hill, 
Chairwoman Waters, thank you for this opportunity to present 
before the subcommittee this morning. As stated, my name is 
George Selim, and I currently serve as the senior vice 
president for national programs at the ADL.
    For decades, ADL has fought against anti-Semitism and 
bigotry in all forms by exposing extremist groups and 
individuals who spread hate and incite violence. Today, ADL is 
the foremost nongovernmental authority on domestic terrorism, 
extremism, hate groups, and hate crimes. ADL sits at the nexus 
of helping secure our communities from hate and extremism, 
protecting civil liberties, and advocating for change.
    I have served in multiple roles in our government's 
national security apparatus at the Departments of Justice and 
Homeland Security, and at the White House on the National 
Security Council staff. Today, I oversee the efforts at ADL to 
investigate and expose extremism across the ideological 
spectrum.
    The threat of domestic extremism in the United States today 
is severe and urgent. In 2018, domestic extremists killed at 
least 50 people, a sharp increase from the 37 murders 
documented in calendar year 2017. Recent tragedies have struck 
in the form of attacks against Jewish worshippers inside a 
synagogue in Pittsburgh, and against the Latinx community at a 
Walmart in El Paso, Texas.
    We all must come together to comprehensively develop new 
approaches to keep our communities safe. While the financing of 
domestic terror organizations is much smaller than 
international terrorism, with organizations using inexpensive 
methods, cutting off their resources should nevertheless be a 
top priority.
    Domestic extremists, such as white supremacists, may use 
funding for organizational operations, attacks, or for more 
indirect threats, such as propaganda that can motivate others 
to commit acts of violence.
    Domestic extremists typically fund their operations through 
a range of measures, including self-funding and using their own 
finances, a variety of criminal activities, bartering and other 
in-kind relationships, and other methods that they apply, such 
as direct contributions from other individuals, crowdfunding, 
advertisements, and the proceeds of merchandise sales, and, 
lastly, anonymized transfers and transactions such as 
cryptocurrency.
    We urge companies to independently act to prevent 
extremists from using their services to bring harm to our 
communities. Research supported by Congress can help companies 
determine the best way to address today's challenge.
    Some of the promising practices for the financial industry 
include crafting more effective terms of service; improving 
reporting mechanisms; maximizing transparency; ensuring 
appropriate training for trust and safety teams; collaborating 
across industry, including with civil society; and putting 
appropriate limitations on actions to protect civil liberties 
and prevent discrimination.
    We look to you in this committee to use your authority to 
support cutting off financial flows to mitigate extremist 
threats. We ask you to support research on the threat of 
domestic terrorist financing and what works to counter it. The 
FBI and the Department of Justice should prioritize their 
efforts and transparently share their view of what the domestic 
threat picture is, including financing and terrorism generally.
    There are a range of steps Congress can take to help 
counter domestic terrorism threats, some of which are ready for 
your immediate action.
    First and foremost, we implore you to use every opportunity 
to speak out loudly against all forms of hate.
    Second, we need the Executive Branch to be held to a higher 
standard of transparency on domestic terrorism issues, and to 
further examine options under current law, such as whether 
overseas white supremacist groups meet the criteria to be 
designated as foreign terrorist organizations, or FTOs.
    Third, we urge Congress to immediately pass the Domestic 
Terrorism Prevention Act, pass the Jabara-Heyer NO HATE Act, 
and increase funding for the Nonprofit Security Grant Program 
and the DHS Office of Targeted Violence and Terrorism 
Prevention.
    And, finally, in light of the lack of a prosecutable 
domestic terrorism charge, Congress should examine whether a 
rights-protecting domestic criminal charge is, in fact, 
necessary.
    Government cannot address today's threats alone, and we 
need whole-of-society approaches to today's challenges. And 
financial services firms, technology companies, and other 
members of the private sector should be urged to improve how 
they can address harmful content on their platforms.
    Thank you for this opportunity to present before you today.
    [The prepared statement of Mr. Selim can be found on page 
80 of the appendix.]
    Chairman Cleaver. Thank you.
    Ms. Miller, you are now recognized for 5 minutes to give an 
oral presentation of your testimony.

STATEMENT OF RENA S. MILLER, SPECIALIST IN FINANCIAL ECONOMICS, 
              CONGRESSIONAL RESEARCH SERVICE (CRS)

    Ms. Miller. Thank you.
    Chairman Cleaver, Ranking Member Hill, Chairwoman Waters, 
and members of the subcommittee, thank you for the opportunity 
to testify today. My name is Rena Miller, and I am a specialist 
in financial economics at the Congressional Research Service.
    Today, I will discuss the regulatory tools on which our 
counterterrorism financing system relies, as well as ways in 
which these existing tools are challenged to address domestic 
terrorism. I will also touch upon changing technologies and new 
proposals.
    I would note that CRS is nonpartisan and does not advocate 
for any particular policies or proposals.
    The existing U.S. regulatory regime to combat terrorism 
financing was not set up with the challenges of today's 
domestic terrorism in mind. The existing regime draws heavily 
upon the Bank Secrecy Act of 1970 (BSA), and the USA PATRIOT 
Act, passed in the wake of 9/11.
    Their key requirements include record-keeping and reporting 
for financial institutions, which I will call ``banks,'' and 
due diligence on customers opening accounts, as well as on 
terrorism designations. These requirements can be powerful 
tools to track foreign terrorists, but they may be less 
relevant for flagging a potential domestic terror attack in 
advance, particularly for small-scale attacks that may not 
require large sums of money, such as those involving retail, 
firearms, or a rented car.
    Another pillar of our counterterrorism financing regime, or 
CFT regime, has been the designations of foreign terrorist 
organizations and the freezing of their assets. But such 
designations apply only to the financing of terrorists abroad, 
not to domestic groups. This may reflect First Amendment 
concerns.
    Although there is very little public information, domestic 
terrorists appear to require relatively limited funds to 
finance their operations, may rely on crowdfunding, and may be 
harder for banks to screen--assuming they use banks--absent 
designations or other public information.
    In sum, although the U.S. may have potent regulatory tools 
against international terrorism, these may be harder to 
leverage against domestic terrorism.
    Current threats from domestic terrorism underscore these 
challenges. In recent testimony, FBI Director Wray noted that 
lone offenders represent the dominant trend for lethal domestic 
terrorists and that, frequently, they act without a clear group 
affiliation or guidance, making them challenging to identify, 
investigate, and disrupt.
    Bank Secrecy Act reports can provide valuable information 
to law enforcement, particularly following such attacks, even 
if their usefulness in flagging potential attacks is still 
debated.
    There is little in the way of public, systematic studies of 
domestic terrorism financing. The Anti-Defamation League's 
study provides one of the few relevant public sources. Their 
study found that such groups tend to be poorly funded, 
decentralized, to be early adopters of new technology, and to 
often rely on crowdfunding and cryptocurrencies.
    Evolving technology and use of new data sets may 
potentially be employed to address these challenges as such 
cross-cutting issues that span different areas of congressional 
oversight may become more important. For example, access to 
data provided on social media sites and payment platforms may 
become relevant.
    Some argue that expanding the data sources examined, such 
as through automated text analysis of social media or 
increasing the interoperability of systems that examine the 
data, such as between government agencies, can help in 
identifying domestic terrorists. Others, however, oppose an 
expansion of monitoring or surveillance for domestic groups, 
citing constitutional issues.
    An approach Congress may choose to pursue is an 
interdisciplinary, interagency study to examine the use of new 
technologies in both the spread and financing of domestic 
terrorism. Such a study may also be used to survey what data 
sets exist, who has access to that data, and the potential uses 
of such data.
    Thank you very much.
    [The prepared statement of Ms. Miller can be found on page 
73 of the appendix.]
    Chairman Cleaver. Thank you.
    And Ms. McCord, you are recognized now for 5 minutes to 
give an oral presentation of your testimony.

  STATEMENT OF MARY B. MCCORD, LEGAL DIRECTOR, INSTITUTE FOR 
 CONSTITUTIONAL ADVOCACY AND PROTECTION, GEORGETOWN UNIVERSITY 
                           LAW CENTER

    Ms. McCord. Chairman Cleaver, Ranking Member Hill, and 
distinguished members of the subcommittee, thank you for 
inviting me to testify about some of the challenges of 
investigating the financing of domestic terrorism and 
extremism.
    There are marked differences between the tools available to 
investigate the financing of domestic terrorism and those 
available to investigate international terrorism. This is 
because the First Amendment protects the freedom of speech and 
peaceful assembly of U.S. persons and organizations while 
providing no such protections for foreign persons and 
organizations.
    Thus, U.S. law provides for the designation of foreign 
terrorist organizations, like ISIS and al-Qaida, even if those 
same organizations might engage in some nonterrorist activity 
that would be protected by the First Amendment if they were 
based here in the United States. A foreign terrorist, or FTO, 
designation allows the United States to enforce criminal 
statutes that prohibit providing material support or resources 
to designated FTOs.
    The material support statute provides a basis for law 
enforcement and the intelligence community to open 
investigations on suspicion that a person or entity may be 
financing a foreign terrorist organization, regardless of the 
purpose of the financing. In other words, even if a person 
wants to fund only the ``humanitarian operations'' of an FTO, 
it is prohibited.
    The material support statute, therefore, drives U.S. 
financial services providers to implement sophisticated risk 
management protocols for detecting potential misuse of their 
services for foreign terrorist financing.
    By contrast, because of the rights protected by the First 
Amendment, there is no comparable designation scheme for 
domestic extremist organizations. Hateful speech, even if 
abhorrent to the majority of the population, is protected by 
the First Amendment, as is assembling with others who share the 
same hateful views.
    Unless an organization engages solely in unprotected 
activity, such as committing crimes of violence, any 
designation of a U.S. organization as a terrorist organization 
would likely run afoul of the First Amendment. Thus, law 
enforcement cannot open an investigation merely based on 
suspicion that someone is providing financing to a U.S.-based 
extremist group.
    Moreover, the FBI is prohibited by its own internal rules 
from opening investigations based purely on First Amendment 
activity. To use investigative tools like undercover and sting 
operations, sometimes criticized as overly aggressive but 
important in any crime prevention program, the FBI must have 
reason to believe that a crime is being or may be committed.
    For the reasons just discussed, providing material support 
for a designated terrorist organization is not an available 
option for opening an investigation into the financing of 
domestic extremist organizations, but there is another gap in 
our criminal laws that impacts terrorism investigations. 
Currently, there is no Federal law prohibiting what is commonly 
thought of as domestic terrorism when committed with a firearm, 
a knife, or a vehicle, all of which have been used in recent 
domestic terrorist attacks in the U.S., when that crime is not 
connected to a foreign terrorist organization or committed 
against a U.S. official or U.S. Government property.
    Likewise, there is no Federal criminal terrorism 
prohibition on stockpiling firearms with the intent to commit a 
mass attack to further what we think of as domestic ideologies 
like white supremacy, as long as it is unconnected to a foreign 
terrorist organization. This gap has several important 
implications.
    First, it fails to accord moral equivalency to terrorist 
acts regardless of the ideology motivating them. This leads to 
a double standard that perpetuates the misconception that all 
terrorism is Islamist extremist terrorism, even when the 
lethality of domestic terrorism in the homeland exceeds that of 
international terrorism.
    Second, it results in inaccurate and inadequate data about 
incidents of domestic terrorism that could be used to develop 
measures to counter the threat.
    Third, and most salient for today's hearing, it fails to 
integrate domestic terrorism investigations into the U.S. 
counterterrorism program, which is based on prevention of 
terrorist acts rather than prosecutions after the fact.
    Filling the gap in our terrorism statutes, as explained 
more fully in the paper I provided as part of my written 
testimony, when coupled with appropriate oversight to ensure 
that resources are being used to combat the most significant 
threats and not to infringe on First Amendment rights, would 
provide more flexibility for law enforcement to open 
investigations into those who may be acquiring or providing 
resources, financial or otherwise, for potential terrorist 
attacks.
    Thank you again for the opportunity to address the 
subcommittee.
    [The prepared statement of Ms. McCord can be found on page 
62 of the appendix.]
    Chairman Cleaver. Thank you, Ms. McCord.
    And I thank all of you for your testimony.
    I now recognize myself for 5 minutes, and what I would like 
to do is just follow up with you, Ms. McCord, because you 
raised an issue that we have tried to address.
    In August, right after the El Paso murders, I sent a letter 
to Treasury Secretary Mnuchin, Secretary of State Pompeo, and 
Attorney General Barr, asking that the Department of the 
Treasury and the Department of State designate the El Paso 
shooter as a specially designated global terrorist, consistent 
with Executive Order 13224, and to develop a list of other 
potential white nationalist individuals or organizations in an 
attempt to prevent future attacks.
    And what we have now, most of the things that we 
concentrate on domestically are not domestic. We are still 
responding to 9/11. Are we moving in the right direction? The 
FBI still recognizes--and you mentioned it--the paramount 
threats based on outside, international bad actors. What can we 
do? You raised the issue, but do you have any specific 
recommendations for us?
    Ms. McCord. Thank you, Mr. Chairman.
    I have recommended in writing, in public speaking that I 
have done, and in consultations with Republicans and Democrats 
in both the Senate and the House of Representatives--I have 
suggested consideration of a domestic terrorism statute.
    Now, I say, ``domestic terrorism,'' but really, I think the 
distinctions between domestic and international terrorism have 
pretty much fallen by the wayside for the reasons you just 
indicated. We have seen domestic terrorist attacks here where 
the attacker is referencing the Christchurch, New Zealand, 
shooter, for example; people in the Netherlands and Western 
Europe, Southeast Asia, et cetera, they all are referring to 
each other. And we know that there are white nationalist and 
white supremacist extremist groups operating and advocating 
violence in other countries.
    So, in addition to potentially creating a domestic 
terrorism statute--and by that, I don't mean designation of 
domestic organizations as terrorist organizations, because I do 
think that presents very fraught First Amendment problems, as I 
indicated in my oral statement--but criminalizing the actual 
commission of violent acts when done with the intent to 
intimidate or coerce a civilian population or influence the 
policy of government through intimidation or coercion, which is 
the current definition of terrorism in the U.S. Criminal Code.
    That would drive more resources toward prevention and 
investigations, using proactive techniques like undercover 
operations, sting operations, et cetera. It would need to be 
accompanied by oversight, reporting to Congress and to the 
public, to ensure that those resources are not misused.
    I think also worth considering, and particularly pertinent 
to your question, is whether there are foreign organizations 
that are white supremacist, white nationalist organizations 
engaging in terrorism that would meet the criteria for 
designation as a foreign terrorist organization. They just have 
to be foreign, they have to engage in terrorist acts or have 
the capability and intent to engage in terrorist acts, and 
present a threat to U.S. nationals or the homeland. With a 
designation of a foreign terrorist organization for a white 
nationalist group, that group would become poison, just like 
al-Qaida and ISIS.
    Chairman Cleaver. Thank you very, very much.
    Ms. Brooks, Mr. Selim, I don't have a lot of time left, but 
the whole social media issue is chilling. On April 9th, we had 
a hearing on hate crimes, and we had testimony from 
representatives from Google, which owns YouTube. And it was 
reported that YouTube was forced to turn off comments sections 
of its live stream less than an hour into our hearing because 
it was flooded with hate speech and racist comments.
    The First Amendment issue is something we all in this 
country respect, but when human life hangs in the balance, what 
is the right balance to respect civil liberties but at the same 
time preserve life?
    Mr. Selim. Mr. Chairman, thank you for that question.
    ADL believes very firmly in protecting the right of free 
speech of any person or any group in the U.S., irrespective of 
how abhorrent those beliefs can be. But there is indeed a line, 
which we have seen crossed in recent years, where hate speech 
leads to hate violence and violent extremism in the U.S., as 
the other panelists here have documented extensively in their 
testimonies.
    Some of the measures that YouTube, in particular, and other 
social media companies are starting to employ are a step in the 
right direction, but it is our belief that more needs to be 
done.
    Chairman Cleaver. I am going to return to this if we have a 
second round of questions.
    Right now, I would like to recognize the gentleman from 
Arkansas, the ranking member of the subcommittee, Mr. Hill.
    Mr. Hill. Thank you, Mr. Chairman. And thanks again for 
this hearing.
    Ms. McCord, just following up on that theme, we obviously 
have a statute against hate crimes in the United States, and it 
includes planning one, in addition to committing one.
    Is that a place where you would go to work on this 
definition of domestic terror, effectively? Tell me the 
distinctions there between committing a hate crime, which is 
against Federal law, and the more complex conspiracy aspect of 
domestic terrorism?
    Ms. McCord. Certainly.
    I look at this as a Venn diagram. There are certainly many 
cases in which a crime that would qualify under the definition 
in the Federal Criminal Code as domestic terrorism might also 
be a hate crime.
    For example, the Pittsburgh synagogue shooter at the Tree 
of Life is now charged with multiple Federal hate crimes. I 
would say that his crime also very well qualifies as domestic 
terrorism under the U.S. Criminal Code, and that is, again, a 
crime of violence that violates State or criminal law and that 
is done to intimidate or coerce a civilian population or 
influence a policy of government through intimidation or 
coercion.
    I know many people have said more rigorous enforcement of 
our hate crime statutes and investigations predicated on those 
statutes might be a gap-filler, and I do think it would be 
helpful, and more resources should be put toward that.
    But there are things that would not fall into the center of 
that Venn diagram. Anarchist violence, sovereign citizen 
violence, violence that is not based on race, religion, or one 
of the other protected categories of hate crimes would fall 
outside of that. And so, it is not a perfect fit.
    It is also not a perfect fit just as a practical matter, 
because the investigators, at least at the FBI, which is the 
ones I am the most experienced with given my career at the 
Department of Justice, those who are in the counterterrorism 
branch are specialists in terrorism, and they are specialists 
in the types of investigative techniques used to ferret out and 
prevent terrorist acts. The investigators, wonderful 
investigators, in the Hate Crimes Branch are, within the 
Criminal Division, focused--and their own Assistant Director, I 
believe, has testified to this effect--on justice after the 
fact.
    I understand that those two branches now have a joint task 
force and are working more together, and I applaud that and I 
think it is a great idea, but there are still some gaps that 
remain.
    Mr. Hill. Thank you.
    And, Mr. Selim, you wanted to add to that, please?
    Mr. Selim. I would only add to the last point that Ms. 
McCord made, that this new joint fusion cell at the FBI--ADL 
has worked closely with both sides, both the Counterterrorism 
Division and the criminal side, which investigates hate crimes.
    We have been a firm supporter of increased resources for 
Federal Government enforcement of hate crimes laws, as well as 
resources that would be devoted to the FBI and the Department 
of Justice's ability to collect information and data related to 
hate crimes and bias-based crimes.
    There is a lot more that we believe, as part of the gaps 
that Ms. McCord alluded to, that DOJ and FBI can be doing to 
incentivize State and local municipalities for increased 
reporting on hate crimes. The joint fusion cell that they have 
established is a step in the right direction, but more 
resources and data needs to be collected to help fill those 
gaps.
    Mr. Hill. Thank you.
    Ms. Brooks, are there any States that have a domestic 
terrorism statute in the United States?
    Ms. Brooks. No, sir.
    Mr. Hill. We do have State hate crime laws, I guess.
    Ms. Brooks. That is correct.
    And I agree with Ms. McCord and Mr. Selim. There is that 
nexus, but it doesn't always, kind of, fit together. If we were 
to provide consistent protections around hate crimes and the 
investigation of hate crimes, then we could make headway.
    I do note that the Department of Homeland Security did 
disband a group of intelligence analysts who focused on 
domestic terrorism. So, when we take steps back in that way, I 
think we lose ground.
    Mr. Hill. Okay. Thank you for that.
    Mr. Chairman, frequently in Congress, we put things into 
buckets, and sometimes people attempt to introduce bills in 
their committee they serve on, the committee of jurisdiction, 
when the problem really should be solved elsewhere, in another 
committee, occasionally.
    What is good about this, I think, is the illicit finance 
aspect of it and calling attention to it, so I commend the 
hearing, but I am concerned that we have to go to first 
principles. Before we go around and try to get FinCEN involved 
in something that they are probably not the right place for, we 
ought to make sure that we look at this legal basis to deal 
with the First Amendment, deal with the constitutionality, deal 
with the definitional issues. Because it is really a domestic 
issue. We need domestic laws that deal with it.
    So I would hope Homeland Security and the FBI would make 
recommendations on this so that we can get first principles 
right before we deal with some of these derivative potential 
issues. But this has been very helpful, and I look forward to 
the continued discussion.
    I yield back.
    Chairman Cleaver. Thank you. I am on the House Committee on 
Homeland Security, and I do think we probably ought to try to 
do something jointly.
    Mr. Hill. Yes.
    Chairman Cleaver. I would like to recognize now the Chair 
of the Full Committee, Chairwoman Waters, for 5 minutes.
    Chairwoman Waters. Thank you so very much, Chairman 
Cleaver.
    This is a very important hearing, and President Trump has 
consistently downplayed the threat of domestic terrorism, 
especially the violence from the right-wing extremists among 
his supporters. The Trump Administration has undermined the FBI 
and other law enforcement agencies by cutting budgets, 
eliminating staffers, and terminating programs to counter 
radicalization. His Administration, I believe, is harming the 
government's ability to respond to the growing threats from 
domestic terrorism.
    I would like to know what the panel thinks about this 
President's denial that there is a threat from right-wing 
extremists and how his thinking and his actions affected the 
Federal Government's efforts to fight domestic terrorism.
    Let me just start with asking for a response to this from 
Ms. Brooks, who is the chief workforce transformation officer 
for the Southern Poverty Law Center.
    Ms. Brooks. Yes, ma'am. Thank you so much.
    Certainly, President Trump's acceptance and encouragement 
of this rhetoric around hate and the whole notion of a white 
genocide, these ideas are--he picks them up and carries them 
into the public square.
    The Southern Poverty Law Center would say that one of the 
biggest drivers in the increase in hate and hate activity is 
this whole notion of shifting demographics. It plays into the 
false notion and the false narrative that there is a white 
genocide afoot. Unfortunately, President Trump, because that is 
a large amount of his base, he doesn't counter that narrative.
    The truth of the matter is that when he says that there are 
fine people, when he says that there is no threat, there is no 
real threat, they are troubled people or troubled individuals, 
he is rejecting the facts, the research that shows that there 
has been an increase in these hate attacks, not only 
domestically but internationally as well.
    We also know it is not helpful to have senior advisors 
within your Administration who are seen as advancing a white 
nationalist agenda.
    Chairwoman Waters. Are you referring to Mr. Miller?
    Ms. Brooks. I am referring--yes. As you know, the Southern 
Poverty Law Center released a number of emails between Mr. 
Miller and Breitbart News, which was known as the platform for 
the alt-right.
    I would remind us that, within this Administration, he 
started out with Steve Bannon, who is also an avowed white 
nationalist.
    These kinds of relationships make it hard, I think, for the 
President to take one stand or the other. You cannot hold 
people close to you and then take a stand against their very 
actions.
    So, I would agree with you, it is problematic, it is 
troublesome. We look to the Congress and the rest of our 
leaders to hold the Administration to account.
    Chairwoman Waters. Thank you.
    Mr. Selim, do you agree with that?
    Mr. Selim. Chairwoman Waters, thank you for that question, 
and thank you for raising these issues. I would like to offer a 
few concrete facts and statistics that I think can help address 
this issue.
    Over the course of the past decade, between calendar year 
2009 and 2018, domestic extremists of all kinds killed nearly 
430 people across the United States. Of those deaths, 73 
percent were at the hands of right-wing extremists, such as 
white supremacists, sovereign citizens, and militia adherents, 
as a number of the members of this committee alluded to.
    In 2018, there were nearly 50 deaths, which was the fourth-
deadliest year on record for domestic extremist-related 
killings since 1970.
    Ma'am, the conclusion of these statistics is that, when it 
comes to white supremacist and white nationalist violence that 
results in the loss of life in the United States, it is 
impossible to blame one specific person; there are a range of 
different factors that can be attributed to the loss of 
American lives. But I would say that it is the responsibility 
and it is incumbent on leaders at all levels--Federal, State, 
and local--to stand up and forcefully speak out against bigotry 
and intolerance of all forms.
    Chairwoman Waters. Do you attribute to the President a lack 
of leadership in this area?
    Mr. Selim. I would say that any time an elected or 
appointed official has the opportunity to condemn bigotry and 
intolerance, they should do so.
    Chairwoman Waters. I yield back the balance of my time.
    Chairman Cleaver. Thank you, Chairwoman Waters.
    I appreciated very much the Houston Texans being beaten 
soundly by the Chiefs on this past Sunday. And now, I recognize 
the gentleman from Texas, Mr. Williams.
    Mr. Williams. Thank you, Mr. Chairman, and thank you, Mr. 
Ranking Member, for this hearing.
    I must say, I am disappointed that we are taking political 
shots at our President when the threat of domestic terrorism is 
real. And what we are doing is reducing the true impact, I 
believe, of this hearing today. So, I am sorry that we are 
going down that road.
    With that being said, I am sure you all remember, just a 
few years ago, the congressional baseball team, of which I was 
a member, and I was one of six who were wounded, targeted by a 
left-wing, deranged shooter who was specifically targeting the 
Republican team because of his political beliefs. Also, Fort 
Hood is in my district, and you are familiar with some of the 
instances we have had at Fort Hood. So, this whole thing is 
really personal with me. I may see it differently than others.
    And with that being said, we, as Americans, must always be 
able to speak about our differences and carry unwavering 
beliefs without resorting to violence. So, I want to thank our 
witnesses for coming here before us today to share your 
expertise so that we can all ensure that the horrible instances 
we are talking today about will never happen again.
    Many of you have referenced in your testimonies that these 
attacks often do not require many resources to carry out. As we 
debate various proposals to try to stop these attacks before 
they occur, we need to take into account the constitutional and 
privacy concerns that would come if there was increased data 
collection by our government or financial institutions. We, as 
lawmakers, must debate these issues in full transparency, in 
front of the American people, as we try to strike the correct 
balance.
    Make no mistake: Domestic terrorism is horrible in all of 
its forms, and I am not calling for inaction. But we must make 
sure that we understand all the repercussions before passing 
new laws.
    So, Ms. McCord, I would like to get your thoughts on what 
you believe is the appropriate balance between free speech, 
privacy, and security.
    Ms. McCord. Thank you, Congressman. The Supreme Court has 
been very clear that violence and incitement to imminent 
violence is not protected by the First Amendment, and so I 
think that is a good place to start when we talk about drawing 
the lines. And I mentioned earlier in today's testimony that I 
have advocated for Congress to study whether a terrorism 
offense should be created that applies to all terrorism that 
occurs here in the United States, regardless of its ideology. 
And it would apply to crimes of violence that are criminal 
under Federal or State law, so we are talking about murder, 
kidnapping, assault, aggravated assault, assault with a 
dangerous weapon, those types of serious crimes, when done with 
the intention to intimidate or coerce a civilian population or 
influence a policy of government through intimidation or 
coercion. These are the acts that are being then investigated. 
It is not First Amendment-protected activity that would be 
being investigated, and so I think that draws that line.
    Now, to get to the latter part of your question about, how 
do we ensure privacy, as I have alluded to--and also just civil 
rights and civil liberties, as I have alluded to before, I 
think it is important, particularly when we are talking about 
investigations here in the homeland of U.S. persons and U.S. 
entities, that there be rigorous oversight to ensure that if 
there were a new terrorism statute applicable to terrorism here 
at home, again, it would be--regardless of ideology, it could 
be Islamic extremist terrorism, white nationalist extremism, 
animal rights extremism--that there is reporting of the 
investigations opened by category on a sort of a yearly basis 
so that Congress and the American people can ensure that these 
tools are not being misused by law enforcement to go after 
individuals whose views they disagree with.
    Mr. Williams. Okay. Ms. Miller, on page 4 of your 
testimony, you state that white supremacist groups tend to be 
early adapters of new technologies to finance their activities. 
Do you think the government procurement process operates at a 
pace that hamstrings our agencies for monitoring and combating 
these new funding streams as they come to market?
    Ms. Miller. Congressman, thank you for that question. I am 
an expert in financial regulation but not in government 
procurement, but we do have experts at CRS who follow 
government procurement issues. So if you would like me to 
follow up on that, we could get a written answer back to you.
    Mr. Williams. If you could, I would appreciate that.
    Director Maples, in your testimony, you say the New Jersey 
Suspicious Activity Reporting System collects and analyzes over 
a thousand SARs per year. While this number seems manageable 
for your team, FinCEN collectively receives well over 1 million 
SARs every year. With such a high volume of suspicious activity 
being reported, it seems like finding the credible threats 
would be obscured amongst all the other data. Really quickly, 
how can we better tailor our SARs regime to expose legitimate 
threats?
    Mr. Maples. First of all, New Jersey is unique in that my 
agency coordinates it, and that goes to the Federal eGuardian 
system, as I mentioned in my comment, but it goes down to the 
local level. So that, I believe, can be replicated nationally 
and supported. We have a smaller number, because we are not 
dealing with the entire nation, we are dealing with New Jersey, 
but the model we have as far as integrated in one central 
location versus multiple fusion centers, multiple areas, just 
the Federal side, we think our model is effective. And if that 
can be replicated, we would be happy to partner and push that 
narrative out there.
    Mr. Williams. Thank you. I yield back.
    Chairman Cleaver. Thank you.
    The gentleman from New Jersey, Mr. Gottheimer, is now 
recognized for 5 minutes.
    Mr. Gottheimer. Thank you, Mr. Chairman.
    Director Maples, I proposed bipartisan legislation called 
the FASTER Act to help law enforcement freeze the assets of 
ISIS-inspired lone wolf terrorists and other extremists on our 
soil, to prevent these funds from being used to carry out 
another attack by friends, family, or unknown accomplices 
operating in a small cell. It also calls for a national 
homegrown terrorism incident clearinghouse for law enforcement 
to collect and share information on incidents to help 
investigate and thwart future attacks.
    Director, given your experience in New Jersey, do you 
believe that establishing a national clearinghouse for 
incidents of homegrown and domestic terrorism would help 
Federal, State, and local governments, and the private sector 
collect, share, and mine data to help identify patterns?
    Mr. Maples. Thank you, Congressman. And I also want to 
thank you for your comments at the beginning and your 
partnership and leadership in this area. It has been vital to 
our efforts in New Jersey.
    Mr. Gottheimer. Thank you, sir.
    Mr. Maples. I do think so. I think--and as I just mentioned 
to the gentleman from Texas, we do think we have a great model. 
And the more we can do a clearinghouse and remove stovepipes 
and eliminate those threads that may not be being connected 
amongst Federal, State, and local entities, the better and 
safer we will be, obviously, mindful within the rights of the 
citizenry and our visitors here, but we want to make sure that 
we connect those dots, and doing something like a clearinghouse 
is definitely an effective way to do that.
    Mr. Gottheimer. Thank you. In recent years, your office has 
determined that homegrown violent extremists inspired by 
foreign terrorist organizations such as ISIS and al-Qaida, are 
among the highest threat to New Jersey. In 2017, our State's 
one-of-a-kind suspicious activity reporting, as we were just 
talking about, the SARs program, helped lead to the arrest of a 
New Jersey man planning to help build and detonate a pressure 
cooker bomb in New York on behalf of ISIS. How does financial 
information, do you think, such as suspicious wire transfers or 
large cash transactions, play a part in NJSARs program and 
other gaps when it comes to gathering this information that 
could help lead to an arrest or prevent a potential terrorist 
attack?
    Mr. Maples. One, it is effective. It is a fantastic case 
example, I think, of this happening and working in real time. 
As far as the financial pieces go, we do get reports on those, 
and as the gentleman from Texas also mentioned, there is a 
large variety of financial suspicious activity reports 
throughout the country and the world. I think we can better tie 
into those and make clear articulations as why those are 
suspicious activities, and that can help our State system in 
making sure that we are getting that out there to local 
financial institutions but then also our communities. That is 
that connection point that may help us head off another 
incident.
    Mr. Gottheimer. Speaking of new trends and threats, from 
2013 to 2017, terrorists carried out 25 known vehicle ramming 
attacks in North America and Western Europe, resulting in 156 
fatalities and 790 injuries. This includes the Halloween 2017 
terrorist attack in lower Manhattan, which killed 8 people, 
including my constituent, Darren Drake, of New Milford, New 
Jersey. Since that tragic day, I have worked closely with the 
Drake family to stop terror truck attacks and, recently, we 
reintroduced the bipartisan Darren Drake Act, H.R. 4942, with 
Congressman Fitzpatrick, to ensure rental companies report 
suspicious behavior at every point of sale.
    Director, do we see domestic and homegrown terrorists 
increasingly resorting to terror trucks attacks in public 
space, and how can we stay ahead of this particular threat?
    Mr. Maples. It is a fantastic point, and yes, we do see a 
direct nexus. We are starting to see domestic groups. And I 
would also mention Mr. Selim and the work of the ADL, we 
partner with the ADL and multiple groups throughout the 
country, FBI, et cetera, in determining the nexus. We see a 
clear nexus of domestic terrorism groups starting to look 
towards foreign terrorism organizations for methodologies, 
tactics and practices (TTPs), and what we are trying to 
observe, mass gathering attacks, vehicle-borne attacks, using 
knives. They are seeing that those are effective, and you are 
starting to see an online presence in some other areas that we 
know of that they are talking about using those tactics here in 
America.
    Mr. Gottheimer. Thank you.
    Mr. Selim, I want to recognize the ADL for years of 
sounding the alarm on the threat of violent anti-Semitism and 
attacks on religious groups. We recently experienced, as you 
know, the horrific act of domestic terrorism targeting the 
Jewish committee in Jersey City. We know the assailants had 
been planning for months, acquired supplies, and practiced at a 
firing range in the days before the shooting. Do you believe 
that there was any information that could have tipped off law 
enforcement that the couple was planning an attack? How can we 
find this sort of information out going forward?
    Mr. Selim. Congressman, thank you for that question. And 
thank you for acknowledging both the award and the close 
cooperation between ADL and the New Jersey Homeland Security. 
The way that radicalization and recruitment and mobilization 
like we saw play out in Jersey City has been playing out in 
recent years has continued to evolve. ADL believes that there 
can be more done to prevent and intervene in the cycle of 
radicalization and recruitment.
    Fundamentally, better data drives better policy and better 
security. So the ability for Federal, State, local, and 
nongovernmental entities to collect information, to get better 
reporting on suspicious activity and a range of other factors 
can lead to more comprehensive security procedures. And also, 
it is our belief that we need a comprehensive set of solutions 
that includes mental health, social service, education 
providers, not limited solely to law enforcement, but in 
partnership and in concert with law enforcement prevention 
services.
    Mr. Gottheimer. Thank you. I yield back.
    Mr. Selim. Thank you.
    Chairman Cleaver. Thank you.
    We have a unanimous consent request from Chairwoman Waters.
    Chairwoman Waters. Thank you very much.
    I ask unanimous consent to enter into the record a report 
compiled by the Southern Poverty Law Center on Stephen Miller's 
affinity for white nationalism as revealed in leaked emails.
    Chairman Cleaver. Without objection, it is so ordered.
    Chairwoman Waters. Thank you.
    Chairman Cleaver. The gentleman from Virginia, Mr. 
Riggleman, is recognized for 5 minutes.
    Mr. Riggleman. Thank you, Mr. Chairman. And thanks to all 
of you for being here.
    Before I start my questions, my background was foreign 
terrorism, kinetically and nonkinetically, for a long time. So 
I have some questions on that, but also this hits close to my 
heart.
    Specifically, thank you, Representative Williams, for what 
you said today. Any time you see political violence like that 
is abhorrent, and the reason I can speak to that also is, in my 
district, that is where Charlottesville is, and as you know, 
August 12, 2017, was an awful day for my district with what 
happened there. And for me, as far as white supremacists are 
concerned, I really wish they would just go back to their 
caves.
    That is really pretty blunt and what I can say about that 
specifically, because I got the chance to see ethnic cleansing 
for real and ethnic violence during Operation Allied Force when 
I was on the Romanian-Serbian border, and we were trying to 
protect the Kosovars from ethnic cleansing there. So this is 
something that gets me angry, and I think you see a lot of that 
here, on our panel today.
    Some of the things--you know, we are the National Security 
Subcommittee in Financial Services, and in talking about 
Ranking Member Hill's comments about other things that could be 
done first, I actually have some specific questions about how 
we can thwart domestic terrorism and homegrown violent 
extremist attacks, but it is actually how we can help. I know 
that is scary. We are Congress and we are here to help, but I 
do want to ask these questions, as we go forward, on how we can 
help.
    And I had some incredible questions here, but listening 
to--and, Mr. Maples, talking about you and also the incredible 
work that you are doing in New Jersey, and really, Josh, great 
job. I think he already left. Where can we go? And I am going 
to have a lot of questions here. When you are talking about 
gaps in enforcement--and I want to talk illicit finance with 
Ms. McCord also and Mr. Selim and Ms. Brooks.
    But as far as gaps, when you are talking steganography, 
when you are talking all the things you are doing with 
cryptocurrency utilization, gaining command and control, social 
media radicalization, and the TTP similarities are--tactics, 
techniques, and procedures, similarities between domestic 
terrorists and foreign terrorists organizations, which I really 
would love to have a talk with you about that one day, but also 
social network analysis and pattern analysis.
    When you are talking about what you are doing for that 
specifically, where are the gaps that you are seeing even in 
fusion center types of activities when you are looking at 
targeting, when you are looking at intelligence analysis? Is 
there something that Congress could be doing better with 
resources or information sharing, title authority information 
sharing? Where do you see those roadblocks? And is there 
something specific we could do on the Financial Services 
Committee to help you in trying to get through those 
obstructions?
    Mr. Maples. Thank you, Congressman. Ms. McCord, I think, 
hit it exactly on the head regarding the ties with the 
financing aspect of it. When financial systems are used to fund 
these terrorist activities, right now, largely, certainly by 
Federal statute, they are seen as criminal, and they are 
independent of the acts, potentially. I think a tie between 
those, when you have--whether it be material support, whatever 
you want to call that side, bridging that gap, and when you 
have used illicit funding streams, all the ones that we have 
listed, every one up on stage and the schemes that are used 
there, and it ends up resulting in a violent act or in a way 
that we can prevent that violent act from occurring when we 
find out about a financial tie, it should be treated as 
terrorism, we believe.
    Mr. Riggleman. Yes.
    Mr. Maples. I think from that perspective, the support--and 
I think what every speaker has talked about in getting your 
support on that side would be huge for us.
    Mr. Riggleman. And that is what I want to do. Ms. McCord, 
and we can go back to Mr. Maples, too, I want to ask this 
question because there are experts up here, and everybody might 
have something to say on this. Do you see a rise in 
cryptocurrency utilization over, say, fiat currency? Are you 
seeing something, based on, say, goodness, the way to transfer 
money? And I did some steganography. Are you seeing a rise in 
cryptocurrency utilization as something that we don't have the 
place to resource, or do we need to resource that, or do you 
see that that is a huge limiting factor, or a LIMFAC, for law 
enforcement right now?
    Ms. McCord. I don't have good data on the extent to which 
domestic extremists are using cryptocurrency. It is not my area 
of expertise. I think it is something that definitely needs 
study.
    If I could answer your question about another gap--
    Mr. Riggleman. Yes.
    Ms. McCord. --very quickly, because I know time is short. I 
also think we need more government to government sharing of 
information.
    Mr. Riggleman. Yes, ma'am.
    Ms. McCord. As we discussed, this is not just a domestic 
problem. And NCTC, for example, historically has shared only 
sort of international terrorism information and not this type 
of information. And that could help not only ferret out the 
tactics and plans and plotting but also financing.
    Mr. Riggleman. A loaded question about NCTC, because I have 
worked with them also. Do you see that they don't have the 
resources for domestic terrorism information sharing or do you 
actually see government gaps or actually authority issues with 
sharing that information across law enforcement agencies?
    Ms. McCord. I know that they have recently, through their 
lawyers, done their own sort of review of their authorities and 
have concluded that they can move into this space. I haven't 
done my own separate analysis of that, and I believe that the 
director late last year announced that they were going to be 
trying to develop protocols for sharing more information with 
respect to threats other than your typical foreign terrorist 
organization threats.
    And I can't answer the resource question. You would need to 
ask that of NCTC directly, but I think it is a very good 
development if we start sharing more information government to 
government and then within government, Federal down to State to 
local on domestic threats.
    I was down in southern New Mexico last spring and meeting 
with local officials there about issues happening on the border 
where completely unlawful private militias were unlawfully 
detaining migrants at the border. And I was talking to their 
local sheriffs, police departments, et cetera, and they said, 
``I get a briefing every day about what is happening in Yemen, 
but I don't know what is happening 2 miles away at the 
border.''
    Mr. Riggleman. Thank you. My time is up. I want to help all 
of you all with the stovepipes. I love breaking stovepipes 
apart and crushing them. So, thank you very much, and I yield 
back.
    Chairman Cleaver. Thank you.
    The gentlewoman from Virginia, Ms. Wexton, is recognized 
for 5 minutes.
    Ms. Wexton. Thank you, Mr. Chairman. And thank you to the 
witnesses for appearing before us today and for all the great 
work that you are doing in this area.
    As most of you have already pointed out, domestic 
terrorists have been responsible for more murders in the United 
States than have international terrorists in recent years. The 
FBI released a report in November that looked at lone wolf or 
lone offender terror attacks from 1972 to 2015, and found that 
firearms were by far the most common weapon used in such 
attacks, followed by explosives. Nearly 70 percent of the 
firearms used in those attacks were legally purchased.
    Now, many of you brought up the shootings in El Paso where 
the shooter purchased an assault weapon online from Romania and 
thousands of rounds of ammunition from Russia, which he was 
able to pick up at a local gun store. The New York Times did 
some reporting on the financing of these attacks and found that 
in 8 of the last 13 mass shootings in which more than 10 people 
were murdered, the murderers, in most cases, relied upon credit 
cards in order to amass their arsenals.
    The attacker in Las Vegas spent nearly $95,000 on firearms 
in just the year leading up to the attack, almost exclusively 
with credit cards. The Pulse nightclub shooter opened 6 new 
credit card accounts over 8 months and spent over $26,000 on 
firearms and ammunition in the 12 days prior to the shooting.
    Mr. Selim and whomever else can answer this on the panel, 
can law enforcement generally and Treasury and FinCEN 
specifically do more to detect and disrupt these types of 
attacks?
    Mr. Selim. Ma'am, thank you for your question. And it is a 
critical issue that I think goes back to a number of issues 
that the panelists here have brought up specifically related to 
law enforcement information sharing and tips and tools between 
private industry and financial institutions.
    To specifically answer your question, yes, we believe more 
can be done. The illustrations that you just described with Las 
Vegas, El Paso and others, there can be more information 
sharing, gap analysis. There can be more transparency reporting 
as well as training for trust and safety teams at financial 
institutions that may see abnormalities in purchases of 
firearms or bulk purchases of ammunition, et cetera.
    We think that there are a number of steps, which I have 
outlined in my written testimony, which can be taken to 
strengthen the relationship to prevent, God forbid, another 
type of attack like the ones you just described.
    Ms. Wexton. Does anyone else wish to chime in on that or 
opine about what can be done?
    Ms. Brooks. I would add that the banking institutions, I 
would hope that they would also kind of monitor large purchases 
like that. It was fascinating the way you laid out, $95,000, 
$96,000, I believe you said. That should set off some check, 
some alarm. It is just very interesting.
    Ms. Wexton. Speaking of the data that would need to be 
collected and the parties that would need to be involved in 
such reporting, it is not exclusively the banks, although they 
are the ones who are the holders of those credit cards. That 
would also require buy in and sharing of data from the 
retailers.
    Ms. Miller, are you aware of any gaps that exist in that 
reporting from the retailer side of things?
    Ms. Miller. Let me just say, stepping back a moment, the 
issue has received a lot of attention in the press, in The Wall 
Street Journal, The New York Times, and some Washington Post 
reports about the role of credit cards in financing some of 
these mass shootings.
    In terms of the data and standards that apply, there is a 
voluntary standard within the credit card industry called the 
PCCI standards. And it is not currently clear, at least to me, 
whether and to what degree financial institutions have access 
to the types of data that retail merchants obtain, so I think 
that question certainly remains.
    Ms. Wexton. So retailers don't necessarily automatically 
disclose these purchases to banks in a way that they would be 
able to gather that information and report it were they 
required to do so?
    Ms. Miller. My understanding is that financial institutions 
that provide credit cards to merchants, I believe that they say 
they don't, as a normal course of business, get that 
information. I think the question would probably go to the 
payment card industry for more detail.
    Ms. Wexton. Thank you.
    Now, given the sophistication of AI and a lot of the 
existing programs that we already have in place to combat money 
laundering and other illicit financial activity, it is clear to 
me that we can do more using financial intelligence to 
intervene in these kinds of attacks and hopefully be proactive 
and stop them from happening before they take place. Thank you.
    And with that, I yield back the remainder of my time.
    Chairman Cleaver. The gentleman from Tennessee, Mr. Rose, 
is recognized for 5 minutes.
    Mr. Rose. Thank you, Chairman Cleaver. And thanks to the 
panel for being here today to discuss this important issue of 
homegrown radicalization and terrorism finance.
    To tackle domestic terrorism more effectively, many experts 
say the United States needs increased cooperation and 
collaboration among all law enforcement, the Department of 
Homeland Security and other agencies.
    Mr. Maples, how would you describe information sharing 
between government agencies today?
    Mr. Maples. Thank you for the question, Congressman. I can 
only speak for New Jersey and my optic in New Jersey, but I can 
tell you that our information sharing is unique in New Jersey 
in that we are directly tied and integrated from Federal, 
State, and local levels. We are proud of that in New Jersey, 
and we do believe it is working effectively.
    One area, and it gets to a couple of the questions that 
have come about, is in the technology behind it. And some of 
the sharing that we are hearing about from the financial 
sector, I think we can do better at that. There are a lot of 
tools, there are a lot of resources available on the Federal 
side. I know I mentioned that I worked in charge of 
cybersecurity in New Jersey. For example, JPMorgan Chase spends 
about $775 million a year on cybersecurity.
    I think there can be better ties into some of those 
networks, resources, and tools, and that will promote 
information sharing in a way that hasn't been done before 
specifically to finance, and I think that can be more 
effective.
    Mr. Rose. Are there barriers that need to be addressed, 
that you are aware of?
    Mr. Maples. Right now, I don't know that there is a direct 
tie into those financing pieces. It is really tied around 
physical security, critical infrastructure security, but on the 
physical side, and there is a gap there that I think we can 
address together. And it has really been highlighted, I think, 
by the panelists, and that can be an area where we would see an 
increase in threat prevention and threat detection.
    Mr. Rose. Are there currently instances where private 
entities such as banks proactively share information, in your 
experience?
    Mr. Maples. There are, and I don't want to speak on behalf 
of the FBI, but they do have a program that is helping with 
that. In the State of New Jersey, we are working towards that, 
and we have a great infrastructure program that my agency runs 
where there are mandatory tie-ins. But again, it has largely 
been based in the physical threat realm up until this point. 
And what we are seeing with finance is it is not just the 
technology but also the money transfers, et cetera, and I think 
that is an area where we can expand. But we are going to need a 
little tighter definition of that, I think, from the Federal 
side to get the funding tied to that and additional funding.
    Mr. Rose. One of the bills before us today is H.R. 5132, 
which would require FinCEN to issue an advisory about how 
homegrown violent extremists and other domestic terrorists 
obtain firearms. I have some very serious concerns about this 
bill. First, the bill requires FinCEN to define various terms, 
including firearm accessory, homegrown violent extremist, lone 
wolf, and lone actor.
    Ms. McCord, have these terms already been defined by other 
agencies such as the FBI, DOJ, DHS or others? And what would 
the benefit of FinCEN developing its own definitions be, in 
your estimation?
    Ms. McCord. Some of those terms are defined in current 
criminal statutes, like firearms and accessories. Others are 
terms of art used by FBI and DOJ for their own internal 
purposes. I would have to look at each term to see whether 
there were already definitions in the code.
    I think as a matter of avoiding confusion, when there are 
already preexisting definitions in the U.S. Code for a term, 
that is probably the one you want to turn to when you are 
looking at new legislation. But I do think there is certainly 
value to collecting information related to firearms purchases 
and firearms accessory purchases.
    Taking my experience prosecuting international terrorism 
for several years, oftentimes when we are talking about 
terrorist acts occurring here in the United States, these 
involved acquiring firearms for use in those attacks. And many 
operations that the FBI undertook, investigative undercover 
operations, involved engaging online in an undercover capacity 
with individuals who were seeking to acquire firearms in 
particular for use in terrorist attacks.
    Mr. Rose. Thank you. I just want to say as kind of 
reiterating my concern about 5132 and coming from a background 
with the private banking industry, financial institutions, I am 
deeply concerned that we continue to call on private sector 
players to, at their expense, which, of course, ultimately is 
at the consumers' expense, provide information and conduct law 
enforcement activity in gathering information without really 
any consideration for the cost that it imposes on those 
institutions. And so, that adds to my concern. Thank you.
    And with that, I yield back.
    Chairman Cleaver. Thank you.
    The gentleman from California, Mr. Vargas, is now 
recognized for 5 minutes.
    Mr. Vargas. Thank you very much, Mr. Chairman, and thank 
you, Mr. Ranking Member, for bringing this forward. I think it 
is very important to talk about it and try to find solutions. I 
also want to appreciate what Mr. Riggleman said, the issue of 
ethnic cleansing, because we do see in other societies and 
other countries what happens when you have extremism. It runs 
afoul.
    For example, we were very fortunate, my family, in being 
able to adopt a Muslim family from Kosovo. They lived with us 
for 2 years because of ethnic cleansing, a beautiful family who 
never caused anyone any harm, but again, they were driven from 
their property, from their home, simply because they were 
Muslim, by the Christians who didn't want Muslims in their 
area. And again, they lived with us for 2 years. I think Bahim, 
the husband, is like a brother to me now, and certainly, his 
girls see me as an uncle. And it has been a wonderful thing, 
but it is terrible how it began.
    And so this is something, again, that I think we have to 
take very seriously. And I think normally, in our country, we 
are doing actually a pretty good job with diversity. Most of us 
like each other. In fact, most of us love each other and get 
along pretty well. I have to say that I was at Mass this past 
Sunday and I looked around and saw how diverse--I am from San 
Diego--we were, different races, ethnicities, cultures. And I 
think we do a pretty good job.
    However, I do think that there is an uptick at the moment 
of violent extremism. I think the numbers point it out, as we 
were talking about today, and then how do we address that in a 
way that doesn't violate our civil rights? One of the beautiful 
things about our country is we do have freedom of speech. And, 
in fact, some of the views of the minority over the years have 
become now the views of the majority, and some of the views 
that we really cherish, for example, all men are created equal, 
we had to kind of spell that one out a little bit to mean not 
just white men with property, but also women and everybody 
else. We are all created equal.
    But I do see an upswing. And one of the things that we 
haven't talked about too much today that concerns me is the 
issue of cryptocurrency and how monies could be used without 
anybody following them. I think we have done a good job of 
talking about everything else, the gaps, but we haven't talked 
much about that.
    Director, I would like to ask you about cryptocurrency and 
how it could be used. I know it is used certainly in foreign 
extremism and terrorism, but what about domestic experience?
    Mr. Maples. Thank you, Congressman. We brought it up. We 
felt it was important to bring it up. It is something we are 
tracking as a potential trend in domestic terrorism because of 
the traceability. It is encrypted. The technology behind it 
makes it very difficult to track and interrupt those plots, the 
money transfers, et cetera. As you all know on this committee, 
the financial transfers end up being a huge tool that we have 
in the law enforcement and Homeland Security sector at 
intercepting and detecting, deterring, stopping these events 
and incidents from happening.
    It's very effective overseas at the traditional money 
channels. But when you talk about bitcoin and you talk about 
any of the online encrypted currencies, they become very 
difficult to track as the transfer is happening and who is 
doing it, where they are coming from. It can bounce off of all 
the different--the tactics that are used online to mask the IP 
addresses and the locations of the routers, et cetera. And 
because of that, the domestic terrorism perpetrators in our 
country are aware of that. They are seeing that from a foreign 
side that they are using.
    Again, I mentioned Facebook and Telegram, but there are 
plenty of other mediums that we are aware of and are working 
with our Federal partners to detect. They are seeing the 
effectiveness of being able to mask those movements. And so as 
cryptocurrency becomes more prevalent, and the technology 
becomes easier to adapt and use, we do believe we will see more 
use of that in the domestic terror realm.
    Mr. Vargas. And that is one of my concerns. I do think that 
it is going to grow as we see that our financial system becomes 
more and more dependent on cryptocurrency. It is very small at 
the moment, but again, it is a perfect medium to be able to 
hide money moving around, as you just said. And I think it is 
already used in human trafficking. We know that. And I think it 
is also going to be used in domestic terrorism more and more, 
unless we are able to do that.
    I do have the same concerns, though, that some of my 
colleagues have on the other side. I trust government 
generally, but I don't want government to be so intrusive that 
it is in everybody's lives at all the moments and all the time. 
I think a lot of Americans are concerned about that also. How 
do we do it in such a way that we are able to track this money, 
but at the same time not be so involved in their lives, 
Americans' lives, that they feel that it is government 
intrusion that shouldn't be there?
    Mr. Maples. I will start by saying that my agency and I 
respect the rights of Americans, first and foremost. That 
becomes part of our goal. We need to protect and defend our 
homeland, but we need to be mindful of those rights that are 
guaranteed to us in our Constitution, Bill of Rights, et 
cetera. So, we will start out with that.
    But the second piece is, we have to, one, put stringent 
oversight in place. I am supportive of that, making sure that 
the right people are aware of what is happening in a way that 
represents our country and our citizenry.
    And two, is the processes that we put in place to detect 
those, to monitor and track the transfers and all those 
online--the online presence we talked about. If we get the 
processes right, and in conjunction with the right amount of 
oversight, I think we can get to the right answer to protect 
and defend our country.
    Mr. Vargas. Thank you. My time has expired. Thank you very 
much.
    Chairman Cleaver. Thank you.
    The gentleman from South Carolina, Mr. Timmons, is 
recognized for 5 minutes.
    Mr. Timmons. Thank you, Mr. Chairman. I would like to thank 
all of you for taking the time to come and testify before us 
today on this important issue.
    As part of myy background, I was a prosecutor for 4 years. 
I prosecuted domestic violence, white collar crime, and I had a 
number of murders and armed robberies. I was a State senator 
for 2 years, and I have spent a lot of time thinking about how 
to make our society safer. I am convinced that one of the 
biggest challenges we face right now is a lack of 
interconnectivity and standardization of law enforcement.
    So Federal, State, and local agencies, particularly in 
South Carolina--and I will use domestic violence as an example. 
When we pull the reports Statewide for domestic violence in 
South Carolina, you will see arbitrary lines that are--there is 
no socioeconomic, there is no justification for the difference 
between one neighborhood versus another, other than the fact 
that the incident reporting system is vastly different. The way 
that law enforcement is operating is vastly different.
    And I am just convinced that if we can get all the law 
enforcement in this country, at all of the different levels to 
work together in a meaningful way, to share information, to 
standardize and integrate their efforts, we will take the 
biggest step forward. And then, at that point, if we are able 
to get additional information from financial institutions, we 
will be in a better position.
    But I think that this is a step ahead of where we need to 
be focusing. I am of the opinion that the first thing we can do 
to make us safer is something similar to after 9/11. We have 
all of these law enforcement failures. After 9/11, we had 
intelligence failures, so we created a new framework. We 
encouraged them to share more. Whether that worked is another 
conversation.
    But I am convinced that we need to have that conversation 
with law enforcement in this country, and it seems that New 
Jersey is doing a good job at this. Could you talk more about 
the way that you all have increased interconnectivity between 
the various law enforcement agencies?
    Mr. Maples. Sure, I can. Thank you, Congressman. And 
Congressman Gottheimer knows this from being a champion of law 
enforcement in New Jersey, certainly, so I am sure he can add 
some color to my comments as well.
    I will tell you this. I mentioned it was unique. In other 
States, there are multiple fusion centers, oftentimes multiple 
entities responsible for a variety of suspicious threats. You 
named a lot of them just from the criminal side, but then 
bridge it into the terrorism side.
    In New Jersey, every single suspicious activity report that 
is filed from the local level, be it from the community to law 
enforcement, and then all the way up to the Federal side, so 
including the FBI and our key Federal partners, all of that is 
funneled into one location at our State's fusion center. It is 
called the Regional Operations Intelligence Center (ROIC). My 
detectives sit co-located with the New Jersey State Police, and 
every single suspicious activity is filed in one system. And 
when they hit the button that says, we have accepted it as a 
suspicious report, it goes to every single entity that needs 
it. So if it is a small local township, if it is the FBI, they 
all will see it immediately. And if it becomes a Federal case, 
the FBI can then pull it into the eGuardian system and make it 
a Federal case. But it is all done in coordination, so there 
are zero gaps between those two, and that is how we handle the 
suspicious activity reporting.
    But the other piece revolves around how we operate in blue 
sky days, the good days, and that becomes very important. And 
what I mean by that is, we all know each other. We are not 
exchanging business cards in a command post. As was mentioned 
in my biography, I worked for the CIA, not the Culinary 
Institute of America, the other one, and I can tell you that 
any successes that I was a part of in my career were because of 
teamwork and partnership, and because we knew our counterparts, 
again, foreigners and our key colleagues in America, we knew 
them beforehand. We knew the plan, we knew what we were going 
to talk about, what we were going to have to do objective-wise, 
and we bring that same mindset to the table in New Jersey. I 
think those two things combined really are effective.
    Mr. Timmons. So you would say that the tragedy in Parkland, 
the law enforcement failures in Parkland, would not be possible 
in New Jersey because of the systems you all have in place?
    Mr. Maples. I am reticent to say that something would be 
impossible. It is a hypothetical. I can tell you that our 
systems are in place are robust, and I am confident in their 
ability to prevent one of these attacks from happening.
    Mr. Timmons. And when you all were going from the previous 
system which was, I would imagine, far less connected and far 
less integrated, to this system, what were the challenges? Was 
it money? Was it power, that all of the different law 
enforcement agencies don't want to give up their area?
    Mr. Maples. Yes.
    Mr. Timmons. What were the biggest challenges to 
transition?
    Mr. Maples. I think you just hit it right on the head. It 
becomes a political equation of people and ownership of 
information, the information sharing, et cetera, and those 
stovepipes can be very difficult to break down. The 
personalities got in place, I think, at the right time in New 
Jersey, and have continued to be in place to help work and 
guide our agencies--again, Federal, State, and local--together 
to work towards that common goal.
    And the money piece is huge. Again, it has been very 
focused on specific acts of terrorism, physical threat. That is 
where broadening out and getting more funding available towards 
some of the other pieces, the online side, some of the 
technology behind AI and the database network, et cetera. That 
money can go further and be applied in a better way. But the 
funding at the front end, while there, wasn't as coordinated. I 
think we have really tightened that up over time and I look 
forward to more.
    Mr. Timmons. Thank you for sharing a success story.
    And I yield back. Thank you, Mr. Chairman.
    Mr. Maples. Thank you.
    Chairman Cleaver. Thank you.
    The gentleman from Connecticut, Mr. Himes, is recognized 
for 5 minutes.
    Mr. Himes. Thank you, Mr. Chairman.
    I have just one question, and I apologize if you covered 
this in your earlier testimony. I was at a different hearing. 
My question is--I think I will direct it first to Ms. Miller. 
The CRS report makes reference to the fact that domestic 
terrorist financing is really fragmented and probably not very 
large. But I am just wondering, are we seeing any indications 
that any of these groups have access to resources in excess of 
5 figures that would come from wealthy individuals, from 
businesses, or perhaps from sources abroad?
    Ms. Miller. Thank you for that question. First, 
specifically for the CRS domestic terrorism report, I am not 
the author of that, and the specific question to that, I will 
route to that author. But I would like to say one of the key 
studies that is public on financing of domestic terrorism was 
done by the ADL.
    Mr. Himes. Yes, I saw that. I was going to go to Mr. Selim 
next. Yes, it is referenced in the report.
    Ms. Miller. From the public information I have seen, the 
study that they conducted said that there wasn't a lot of 
evidence of wealthy benefactors, although there were a few 
individual cases, which maybe you would like to elaborate on.
    Mr. Himes. Mr. Selim, your organization wrote the report. 
Do you want to add anything to that?
    Mr. Selim. Congressman, thank you for your question. We 
have done a lot of robust research and analytics on this, as 
cited by Director Maples and others here on this panel. There 
are four categories I would just point out to answer your 
specific question. The majority of funding that we have seen 
has, in fact, been self-funding with individuals' own finances 
from their jobs, businesses, et cetera.
    Director Maples had some excellent examples of criminal 
activity, illicit criminal activity to finance extremism across 
the ideological spectrum, as well as another key example that 
he used was the bartering, the use of different types of cards, 
gift cards, et cetera. And last, but not least, which is kind 
of the crowd platform to fund this type of extremism.
    Mr. Himes. Thank you. My question was more, are we seeing 
capability or any of those sources capable of generating, just 
to pick an arbitrary number, anything over, let's just say, 
$100,000 in assets?
    Mr. Selim. I would have to double-check. I don't believe we 
have documented any such individual single contribution.
    Mr. Himes. And do you feel like we have the capability, 
through the banking monitoring systems and whatnot, that if all 
of a sudden one of these capabilities developed--a dark 
philanthropist wanted to inject $5 million into some group, or 
all of a sudden, businesses around the country in some 
networked way were providing cash, would we see that?
    Mr. Selim. Sir, it is my assessment that the command and 
control structure of extremist movements is extremely limited, 
and the websites and the entities that they have put out to 
solicit funding have failed, not because financial institutions 
have taken robust measures or those security procedures are in 
place; they failed because their business models are 
fundamentally bad and morally bankrupt. So, they are not able 
to get the crowdsourcing and the funding and the push behind 
it. Credit card companies won't finance them. They can't link 
to PayPal and other sites, so their business models are really 
bad. In kind of a dark web covert scenario that you are 
alluding to, if there is a cash injection, I believe that could 
be a significant threat stream, but we have yet to see that to 
date.
    Mr. Himes. Yes. It sort of feels like for all the reasons 
you are outlining that some organized financing structure would 
be hard to build, but it is not impossible that somebody 
internationally, individual or a sovereign, acting covertly or, 
again, some maligned philanthropist might decide to do it 
domestically. But we are not seeing that right now?
    Mr. Selim. Not to my knowledge.
    Ms. Brooks. May I add something?
    Mr. Himes. Yes, of course.
    Ms. Brooks. The Southern Poverty Law Center is beginning to 
look at donor advised funds which, from our initial analysis, 
is showing that that very thing is happening. A report showed 
that $11 million went to 34 different organizations that the 
Center identifies as hate groups. Now, they may not be the 
domestic terrorist groups, they may not be the people on the 
ground--
    Mr. Himes. I'm sorry, did you say $11 million?
    Ms. Brooks. That is correct.
    Mr. Himes. From a single source?
    Ms. Brooks. Between 2014 and 2017 to specific donor-advised 
funds, charitable contributions. So when you asked your 
question, could there be a philanthropist who is seeking to 
fund a particular maybe ideology as opposed to a specific group 
on the ground, that is happening with the VDare Foundation. 
VDare is a quite popular white nationalist group. We showed 
that they received about $50,000 through these donor-advised 
funds, because there is no--people are able to keep their 
anonymity when they are contributing to these funds.
    So there is a connection but not directly to what we could 
call the domestic terrorist groups. But it is important to note 
that they influence those people on the ground. If they can 
give money to the more legitimate organizations who produce and 
distribute the rhetoric, then it will get to domestic 
terrorists on the ground.
    Mr. Himes. Okay. Thanks very much. My time has expired.
    Chairman Cleaver. Thank you.
    The gentleman from Ohio, Mr. Gonzalez, is recognized for 5 
minutes.
    Mr. Gonzalez of Ohio. Thank you, Mr. Chairman. And thank 
you to our panel for being here today.
    First, I want to commend Mr. Selim on what you said at the 
very end of your written testimony, which I think speaks to the 
heart of this, which is that it requires a whole of society 
approach, what we are talking about.
    And additionally, Director Maples, I read your testimony. I 
thought it is just the facts. You go through different 
organizations, right and left, which I personally don't think 
is a useful way of categorizing these people, but that just 
says this is the extremist activity that is taking place in the 
homeland writ large and providing that. Because extremism of 
all kinds is on the rise, and that has been documented, and it 
is something that we should be equally outraged about, whether 
it happens on the left or the right. We should be equally 
disgusted when El Paso happens as Dayton, which are two 
different ideologies. And I think the fastest way to make sure 
that we do absolutely nothing on this issue is to politicize 
it, which I have seen, unfortunately, from some in this hearing 
today.
    I believe in my heart that the vast majority of my 
colleagues on the other side of the aisle do not support, for 
example, Antifa, or other organizations, or the comments from a 
Bernie Sanders surrogate that showed up on the internet. I know 
that. And I know that on this side, we are outraged over white 
nationalism. And if we can't have that dialogue in concert, we 
will not solve this. And so, I hope that we will be able to put 
the partisanship aside and actually work on it.
    When I look at the challenge, at least with respect to this 
hearing, I think there is a definition question, and then there 
is a technical question. The definition question is, what are 
we going to qualify as domestic terror?
    Ms. McCord, I want to start with you. You talked about 
changing the definition and basically saying killing, 
kidnapping, maiming, committing assault resulting in serious 
bodily harm, et cetera, et cetera, with the intent to, 
``intimidate or coerce the civilian population to influence the 
policy of the government,'' et cetera. In your estimation, if 
we made that change, I think that would certainly pick up some 
of the white nationalist groups. Would that also pick up, for 
example, inner-city gang violence, in your estimation?
    Ms. McCord. First of all, thank you for your question. That 
is actually not a change in the definition. That actually is 
the definition of domestic terrorism in the U.S. Criminal Code. 
It is just that there is not an offense connected to it.
    Mr. Gonzalez of Ohio. Got it.
    Ms. McCord. It is the same definition as the definition of 
international terrorism in the criminal code. The difference is 
that international terrorism either occurs abroad or occurs 
here domestically, and this is where so much confusion arises, 
but it is inspired by or on behalf of a foreign terrorist 
organization, therefore, having international connections.
    Mr. Gonzalez of Ohio. Got it. Let me ask it differently. I 
think we are in agreement that some of these white nationalist 
extremist groups should be in that bucket. Do you believe 
inner-city gangs should be in that bucket as well?
    Ms. McCord. It is not about a bucket of groups because the 
definition does not designate groups or organizations. What we 
are talking about as the definition and with the potential 
domestic terrorism statute or just terrorism in the U.S. 
statute is criminalizing activity, which may be of individuals 
or it may be of groups.
    If you are talking about an inner-city gang, we are not 
talking about designating a group. If you are talking about 
white nationalists--
    Mr. Gonzalez of Ohio. The individuals, right.
    Ms. McCord. If the individuals were committing their crimes 
of violence with the intent to intimidate or coerce for 
purposes of sending sort of a political or ideological message, 
then maybe they would fit. That is not what we typically see 
with inner-city gangs. In my experience as a prosecutor, it was 
usually drug-related or something like that.
    Mr. Gonzalez of Ohio. Right. But to intimidate or coerce a 
civilian population.
    Ms. McCord. Yes, or influence the policy of government 
through intimidation or coercion.
    Mr. Gonzalez of Ohio. Okay. Now, shifting to the technical 
side, Ms. Miller, how could FinCEN leverage emerging 
technologies to help us overcome the needle in the haystack 
challenge, sort of the small-dollar fragmented financing 
component? Do you see FinCEN as being able to accomplish that?
    Ms. Miller. This is a difficult and challenging question 
that I am sure FinCEN has grappled with. The challenge, as you 
phrase it, the needle in the haystack, you are referring to 
using financial intelligence prior to an attack to prevent one?
    Mr. Gonzalez of Ohio. Yes. Basically, this notion that 
there are a lot of people online and in our society who are 
saying a lot of things, but the gap between the rhetoric and 
the action, I think, is sort of what I am trying to get at, 
where you go from, okay, this person has been talking about 
different things online--and I am running out of time, so I 
will follow up in writing, but that is what I am trying to get 
at. How can we determine using technology tools, tech tools, 
how to solve that? There are a lot of people talking. There is 
a lot of anger and vitriol, but sort of that gap. How do we get 
there so that we stop the action from actually occurring?
    And I yield back.
    Chairman Cleaver. Thank you.
    The gentleman from Colorado, Mr. Perlmutter, is recognized 
for 5 minutes.
    Mr. Perlmutter. Thank you.
    And Mr. Gonzalez and I are pretty much on the same page as 
to left, right. I am in Colorado. We had an environmental group 
that burned up a big restaurant at the top of Vail, called Two 
Elk, a number of years ago in a way to try to send a message 
about policy of our national forests. And obviously, just 
looking up at this board, we have had anti-Semitic, we have had 
murders related to abortion. We have had all sorts of things.
    And I apologize for missing most of your testimony. I am 
just curious in all of this whether the RICO statutes could 
assist in any of this domestic terrorism type of policing, if 
you will. And it may be a completely off-base kind of question, 
but we used those certainly against motorcycle gangs back in 
the day. And I don't know that we have used RICO too much for 
anything lately, but I am just curious if anybody has a 
response to that? And then, because I have missed so much, I am 
going to let you all talk about anything you want that you 
haven't been able to address through the questions. So does 
anybody have an answer to RICO? Yes?
    Ms. McCord. I do think RICO is an important tool that law 
enforcement should be looking at using, and I am sure the FBI 
is doing that. I think there are a couple of distinctions to 
draw, though, between using those type of criminal tools versus 
tools that are really directed at terrorism. And in part, it 
goes back to something I did mention earlier, who are the 
investigators and the prosecutors? The FBI, even before 9/11 
but certainly since 9/11, has put tremendous resources into 
studying the terrorist threat, primarily studying the 
international terrorist threat, but more and more, due to the 
needs, frankly, and the threat here in the homeland, studying 
the domestic terrorist threat.
    Terrorism is unique and it is different than other types of 
criminal gangs or continuing criminal enterprises and those 
that engage in serial acts of violence and other types of 
crimes oftentimes for financial gain, which is really what RICO 
has been directed to, predominantly.
    The motive for a terrorist offense is not financial gain at 
all. It is to intimidate and coerce. And so, the experts who 
have spent their careers--
    Mr. Perlmutter. Yes. But under RICO, does it have to be for 
financial gain? Is that an element of the statute? I don't 
think so.
    Ms. McCord. No, it wouldn't be. I was really trying to make 
a point about centering the investigations among those who are 
the most equipped to deal with them and study them.
    And I think the second point I wanted to make is something 
we have glossed over a little bit, which is that there are 
extremist groups here, but most of the acts of extremist 
domestic violence motivated by domestic ideologies that we have 
seen are not being perpetrated by people who say, I am a member 
of X group, and maybe have never even done anything to suggest 
they are a member of the group. They are very much inspired by 
rhetoric out there, maybe inspired by other groups. Maybe they 
visited their Facebook page. Maybe they have posted once or 
twice, but mostly these are people who, on their own, consume 
the rhetoric of hate groups and extremist groups and are 
motivated and inspired by that, much like homeland violent 
extremists (HVEs) sometimes are inspired by ISIS and al-Qaida 
and foreign terrorist organizations; similar type of 
inspiration usually over social media, and then they go out and 
do something on their own.
    Mr. Perlmutter. Okay. Mr. Selim?
    Mr. Selim. Sir, if I may just weigh in, the point you made 
on the map above us and here in the hearing room, this is 
actually ADL's HEAT map. And HEAT in this context stands for 
hatred, extremism, anti-Semitism, and terrorism. ADL has 
pioneered this type of proprietary data collection and digital 
visualization for partners at the Federal, State, local, public 
sector, and private sector levels to use these type of tools to 
inform, as Mr. Gonzalez pointed out, how communities can really 
come together in order to combat the threat of extremism and 
terrorism comprehensively.
    Sir, in your specific question, you said, what can we do? I 
would like to offer three specific recommendations. Having this 
body closely examine and pass the Domestic Terrorism Prevention 
Act, passing the Jabara-Heyer NO HATE Act, and significantly 
increase funding for the Nonprofit Security Grant Program in 
the DHS Office of Targeted Violence and Terrorism Prevention. 
And I will yield to my co-panelists.
    Mr. Maples. I will just add--
    Mr. Perlmutter. You have 17 seconds.
    Mr. Maples. Okay. I will be brief.
    Just one quick point that I wanted to make is that ADL and 
the work that they do is truly supportive of what we are doing 
in New Jersey to get ahead of these incidents, and I want to 
make sure I cite Mr. Selim's work personally, and then also 
from an organizational perspective. Thank you.
    Mr. Perlmutter. I yield back.
    Chairman Cleaver. Thank you.
    The gentleman from Kentucky, Mr. Barr, is recognized for 5 
minutes.
    Mr. Barr. Thank you, Mr. Chairman.
    I appreciate my friend, Chairman Cleaver, for holding this 
important hearing, and I appreciate my friend, Mr. Hill, as 
ranking member, for allowing me to weigh in on this important 
topic.
    I want to focus on this recent wave of anti-Semitic 
violence, the attacks in New York, New Jersey, and Pittsburgh 
last year, and San Diego. I don't care if it is right-wing 
extremism or left-wing extremism; this is extremism. It is 
wrong. It is not, and shouldn't be, a partisan issue. It is 
right versus wrong. And I am greatly concerned with the growing 
network of nongovernmental organizations in the United States 
and other western countries which, in recent years, have 
engaged in an organized and well-coordinated boycott, 
divestment, and sanctions, or BDS, campaign against Israel.
    Mr. Selim, I know your organization is very focused on 
this.
    These NGOs often claim to stand for Middle East peace or 
against Israel apartheid or for justice for Palestinians in so-
called occupied territory. But the reality is that many of 
these NGOs have direct financial ties to designated terrorist 
organizations, including Hamas and the Popular Front for the 
Liberation of Palestine.
    I want to draw your attention to Executive Order 13224, 
which is a post-9/11 Executive Order that President Bush 
signed. It directs the Treasury, State, and Justice Departments 
to coordinate in order to cut off funding to designated 
terrorist organizations, block their assets, and prohibit any 
U.S. person or business from transacting with them.
    The current list of specially designated nationals contains 
thousands of individuals and entities that have ties to 
terrorism in Israel and in the Middle East. There is evidence 
that certain grassroots organizations based in the United 
States may have financial ties to Hamas and other SDNs.
    For example, the American Muslims for Palestine (AMP) 
organization is headquartered in Palos Hills, Illinois, and 
describes its mission as, ``supporting campus activism as well 
as working in broad-based coalitions focused on BDS.''
    According to testimony to Congress from a former Treasury 
Department terrorism finance analyst, at least seven 
individuals who work for or on behalf of AMP have worked for or 
on behalf of organizations previously shut down or held civilly 
liable in the United States for providing financial support to 
Hamas. And AMP is a prominent financial backer of Students for 
Justice in Palestine, a network of more than 100, ``pro-
Palestinian student groups across the U.S. which disseminate 
anti-Israel propaganda, often laced with inflammatory, and at 
times, combative rhetoric.'' That is from the Anti-Defamation 
League.
    Identifying and countering these types of groups through 
available authorities under 13224 must be a high priority for 
the Federal Government.
    Ms. McCord, in your testimony, you discussed some of the 
challenges with identifying and countering domestic extremist 
organizations due to, among other things, the First Amendment. 
How can the government do a better job of identifying and 
countering domestic groups like the ones I just mentioned, 
where there is evidence of financial ties to SDNs?
    Ms. McCord. When you are talking about organizations like 
Hamas, that is a designated foreign terrorist organization. And 
if there are organizations or individuals here in the United 
States that are providing material support or resources to 
Hamas, that is a very easy investigation for the Bureau to open 
and for Treasury and State to look into that, because that 
would directly violate U.S. criminal law.
    If we are talking about independent advocacy by U.S.-based 
organizations that might support ideologies of foreign 
terrorist organizations, if it is not directed or funded by a 
foreign terrorist organization, that is a First Amendment right 
because the Supreme Court has said so.
    Mr. Barr. Sure. And I understand that. I am sensitive, and 
I am an advocate of the First Amendment, as we all are. The 
problem here is that there is documented evidence of financial 
support from designated terrorist organizations to some of 
these NGOs. And in July, Congressman Stivers and I sent a 
letter to OFAC asking for a briefing on their process for 
designating entities and how they use their authorities under 
13224. And during that briefing, they made it very clear that 
in addition to OFAC, the FBI plays an important role in 
investigating domestic entities that may have ties to these 
foreign terrorist organizations. We have sought a follow-up 
briefing from the FBI to learn more about their procedures and 
made numerous requests for information, and they have yet to 
provide it.
    The FBI has a lot of problems right now. And we know that 
it is an important element of the construct of combating 
financing for terrorist groups that the FBI investigate this, 
so I am very disappointed that the FBI is not being responsive 
to us and that they declined to participate in this hearing. 
And we are going to continue to push the FBI to investigate 
this.
    I yield back, and I appreciate being able to participate in 
this hearing.
    Chairman Cleaver. Thank you.
    The gentleman from California, Mr. Sherman, who is also the 
Chair of our Subcommittee on Investor Protection, 
Entrepreneurship, and Capital Markets, is now recognized for 5 
minutes.
    Mr. Sherman. Thank you.
    I want to pick up on the comments of the gentleman from 
Kentucky. A decade ago, I brought to the attention of the IRS 
an organization who was advertising on their website that you 
could get a tax deduction for giving money to Hamas. I still 
don't think they have acted--well, I think they acted a few 
years ago, but it took them many years.
    But speaking of Hamas, if you go to a Hamas website, they 
will instruct you as to how to make a donation using 
cryptocurrency. And so I want to focus on cryptocurrency a 
little bit, because if it works for Hamas, it will work for the 
Nazis too.
    I have criticized cryptocurrency in this room before. A few 
of you are aware of that. And I have been deluged with all of 
the argumentation of the fervent supporters of cryptocurrency. 
And if you read it, it is clear that one of the big pluses they 
have is that it weakens the U.S. Federal Government, evades the 
U.S. Federal Government.
    Mr. Zuckerberg was at that table just a couple of months 
ago. He says that, when he creates a new cryptocurrency, 
Facebook will follow the know-your-customer rules and the anti-
money-laundering rules, but then the paper published by his 
company says, ``And then, we will have other business partners 
who will allow for anonymous accounts.''
    So if the Libra ever becomes an efficient currency, Mr. 
Zuckerberg can say that he is not facilitating anonymous 
accounts; he is just having his business partners do it as part 
of a structure that he has created. And I would say that 
anonymous accounts and Know-Your-Customer (KYC), there is no 
way to square those two things.
    On October 21st of last year, FinCEN Director Kenneth 
Blanco gave remarks at a Georgetown University event where he 
discussed cryptocurrency and illicit finance. During his 
remarks, he indicated that those in the crypto businesses are 
arguing that they are incapable of complying with FinCEN's 
anti-money-laundering and know-your-customer rules and, 
therefore, should be exempted.
    I will ask the entire panel: Have you seen evidence of 
domestic extremist organizations moving toward or exploring the 
use of cryptocurrencies in order to disguise their financial 
transactions?
    Mr. Maples. I will begin by saying I did cite that in my 
opening remarks and certainly in my written testimony in a 
little more robust way. We have seen evidence of that. One 
clear-cut example is the Charlottesville example that I cited. 
There was a cryptocurrency exchange.
    And we do see evidence that domestic terror groups are 
realizing that foreign groups, like you mentioned, foreign 
terrorism groups like Hamas, like you mentioned, have been 
operating using Bitcoin due to the encryptions, due to the 
difficulties in tracking those transactions. So, we are seeing 
it.
    Cryptocurrency, of course, is a small subset of the 
American financial system, the world financial system.
    Mr. Sherman. If I can interrupt, I am not sure that you 
will ever be able to buy a ham sandwich for a Bitcoin, but 
Facebook is a powerful organization. If they go with the Libra, 
it will no longer be an inefficient system.
    I also want to point out that we really have to focus on 
preventing these organizations from getting military-style 
weapons. We have seen a lot of terrorist attacks. They don't 
involve an amount of money that is hard to get--they should--
but they involve weapons that should be impossible to get. And 
while we have to turn off the finances to these organizations, 
we also have to focus, or at least another committee has to 
focus on that.
    I am also concerned about the definition of what is a 
terrorist group. This country could move radically to the right 
or the left. In fact, I think it may be given that choice in 
just a few months. It could move--we on the left think it is 
going to move that way. It could move as far to the right of 
Trump as Bernie is to the left of Trump.
    Do the statutes allow a President to designate pro-choice 
organizations or abortion providers as terrorists if they 
declare that the unborn is somehow a group subject to 
oppression? Are our statutes clear enough on that to prevent 
that from happening no matter who is elected President?
    Does anybody have a comment?
    Ms. McCord?
    Ms. McCord. Yes. Thank you.
    Right now, there is no authority, statutory or otherwise, 
for designating domestic organizations as terrorist 
organizations. And as I indicated in my oral testimony, even if 
such authority were provided, either through statute or through 
Executive Order, I think it would run afoul of the First 
Amendment in most circumstances.
    Mr. Sherman. Thank you.
    Mr. Cleaver. Thank you.
    The gentleman from Massachusetts, Mr. Lynch, is recognized 
for 5 minutes.
    Mr. Lynch. Thank you very much, Chairman Cleaver, and I 
appreciate the work that you have done on this issue. It is an 
important issue, but it is tough to get at.
    So, as the Chair of the Task Force on FinTech, and someone 
who has worked with FinCEN in the past on terrorist financing, 
we have a whole framework there where the KYC that we use in 
the international context is also assisted by suspicious 
transaction reports that are filed with FinCEN, cash 
transaction reports that are filed with FinCEN. I think there 
were 15.8 million CTRs filed by financial institutions in 2019 
and 1.5 million suspicious activity reports.
    FinCEN, in the past, has said that in order to find a 
needle in a haystack, you need a haystack. So they get all this 
data, and then they are able to dig through it.
    We don't get nearly the volume of information on the 
domestic side. I am trying to figure out how do we get at this, 
in terms of trying to identify a prospective domestic 
terrorist? We don't have a similar mechanism to do that, do we?
    We don't ask local banks, even traditional banks--let's put 
mobile banking aside for a minute. We don't even get that 
information from our local banks, do we?
    Mr. Selim. Sir, if I may?
    Mr. Lynch. Yes.
    Mr. Selim. Thank you for your question, Congressman.
    I think there are a number of steps, to address your 
question, that can lead up to reporting that eventually creates 
a better ecosystem of data to prevent domestic terrorism and 
extremism: improving reporting mechanisms; increasing 
transparency; and enhancing the training for trust and safety 
teams across financial institutions and financial service 
platforms online.
    These are the core building blocks to ensure that, if and 
when reporting to regulatory or State and local law enforcement 
is required, that that reporting is accurate and substantively 
helpful.
    Mr. Lynch. I see.
    I am not saying we should go there in terms of vetting 
domestic, U.S. citizens without probable cause or anything like 
that in a fashion that would be intrusive. I am just trying to 
get my arms around, how do we, for these low-dollar amounts and 
with the emergence of mobile banking, which doesn't readily 
acknowledge the existence of borders, how might we better 
approach this problem from a domestic standpoint?
    Are there other measures out there that you think might be 
helpful, Ms. Miller? And we greatly appreciate the support that 
Congress gets from CRS, we really do, the Congressional 
Research Service. We all utilize your subject-matter experts on 
a regular basis. We really do appreciate your great work.
    But are there specific measures that you might suggest 
Congress might take up in order to more accurately predict and 
prevent something like this from emerging?
    Ms. Miller. I am going to make two points. One, which I 
will make first, is about the financial system writ large.
    Mr. Lynch. Yes.
    Ms. Miller. It is that the more transparency there is in 
the financial system, the easier it can be for law enforcement, 
FinCEN, intelligence agencies to track the financing of 
individuals, whether it is international or domestic terrorists 
or others.
    There is an issue with legislation in this Congress, the 
beneficial ownership bills that your committee worked with, 
that does address, in a way you have chosen, the issue of 
financial transparency in the system as a whole. The purpose of 
it is to try, as I read it, to prevent illicit actors or others 
from using legal entities to store money, move money, or hide 
money under assumed names without any sort of identification 
procedures about who really controls those.
    Mr. Lynch. Yes.
    Ms. Miller. It is possible that other prosecutors or law 
enforcement officials might have something to say. There have 
been views on both sides, concerns about privacy or cost. But, 
again, that issue of financial transparency in the system writ 
large is relevant here.
    On the question of data and preventing the next attack, I 
would say it is also important to think, first, what type of 
data, what type of information is it that would be most useful, 
and then, second, who in the current system has access to that 
data and at what point in time?
    It seems to me that, with changing technology, we are less 
constrained if data itself is standardized. In looking at very 
large amounts of data, the bigger question is, what type of 
data is useful, who has access to that data, and when and how?
    Mr. Lynch. That is great.
    Mr. Chairman, thank you for your indulgence, and I yield 
back.
    Chairman Cleaver. Thank you.
    I want to really, really express our appreciation to the 
witnesses. You have been great, and we appreciate the 
information you have given us.
    The Chair notes that some Members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 5 legislative days for Members to submit written questions 
to these witnesses and to place their responses in the record. 
Also, without objection, Members will have 5 legislative days 
to submit extraneous materials to the Chair for inclusion in 
the record.
    I would also like to say that we are going to receive some 
additional information from other religious organizations not 
necessarily represented here, and judicatories.
    The hearing is now adjourned, unless there is any critical 
information that you can give us that we don't already have.
    Thank you. We are adjourned.
    [Whereupon, at 12:12 p.m., the hearing was adjourned.]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

                            
</pre></body></html>
